<html>
<title> - FUTURE OF AIRPORT SECURITY</title>
<body><pre>[Senate Hearing 107-1113]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1113
 
                      FUTURE OF AIRPORT SECURITY--
                        DYNAMIC NEW TECHNOLOGIES

=======================================================================





                             FIELD HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON AVIATION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 5, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation










                 U.S. GOVERNMENT PRINTING OFFICE

90-128                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001







           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel

                              ----------                              

                        SUBCOMMITTEE ON AVIATION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
ERNEST F. HOLLINGS, South Carolina   KAY BAILEY HUTCHISON, Texas
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
JOHN B. BREAUX, Louisiana            CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
RON WYDEN, Oregon                    OLYMPIA J. SNOWE, Maine
MAX CLELAND, Georgia                 SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         GORDON SMITH, Oregon
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida                 JOHN ENSIGN, Nevada


















                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on November 5, 2001.................................     1
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     3

                               Witnesses

Barclay, Charles M., President, American Association of Airport 
  Executives.....................................................     8
    Prepared statement...........................................    10
Doubrava, Richard J., Managing Director, Air Transport 
  Association....................................................    14
    Prepared statement...........................................    16
Garvey, Hon. Jane F., Administrator, Federal Aviation 
  Administration.................................................     4
    Prepared statement...........................................     6
Planton, Jeff, Senior Vice President, Federal Group, EDS.........    28
    Prepared statement...........................................    30
Siedlarz, John E., Vice Chairman of the Board, International 
  Biometric 
  Industry Association...........................................    39
    Prepared statement...........................................    42
Selldorff, John, President, Honeywell Automation and Control 
  Solutions......................................................    33
    Prepared statement...........................................    36
Yura, Michael T., Ph.D., Director, West Virginia University 
  Forensic 
  Identification Program.........................................    46
    Prepared statement...........................................    48

                                Appendix

Huddart, Martin, General Manager, Recognition Systems, Inc., 
  prepared statement.............................................    57









                      FUTURE OF AIRPORT SECURITY--

                        DYNAMIC NEW TECHNOLOGIES

                              ----------                              


                        MONDAY, NOVEMBER 5, 2001

                               U.S. Senate,
                          Subcommittee on Aviation,
        Committee on Commerce, Science, and Transportation,
                                                    Morgantown, WV.
    The Subcommittee met, pursuant to notice, at 12 p.m., in 
courtroom 165, West Virginia University College of Law, Law 
Center--Evansdale Campus, Hon. John D. Rockefeller IV, Chairman 
of the Subcommittee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I want to thank everybody for being 
here. I would like to start off with a statement, as Chip and 
Jane Garvey know, we sometimes do in Congress. Thank you very 
much for being here. Thanks very much for being with the only 
university in the country that offers undergraduate degrees in 
something that we're going to be talking about. I want to thank 
President Hardesty and the university for making this 
opportunity available to us, for hosting what is a meeting of 
the Senate Aviation Subcommittee, which I have the honor to 
chair, for this very important hearing on technologies that can 
be deployed to improve our aviation security situation, which 
is obviously a matter of overwhelming importance.
    For years, the State of West Virginia, and West Virginia 
University in particular, have been quietly establishing 
themselves as a leader in perhaps the most promising of 
security technologies, so-called biometrics or human 
identification devices. West Virginia University houses the 
Center for Identification Technology Research, which is a 
university/industry cooperative research center under the 
auspices of the National Science Foundation. I think most West 
Virginians would not necessarily know that, but it is true, and 
it is profoundly important.
    West Virginia is home to the U.S. Army's Biometrics Fusion 
Center in Bridgeport, West Virginia, and throughout the region 
there are a number of related security companies, some of which 
have participated in the impressive technology expo, which I 
hope you have all had a chance to see, and will be continuing 
during the afternoon outside of this room.
    Many of our witnesses, including most especially one of my 
favorite Americans, FAA Administrator Jane Garvey, have 
traveled quite a ways to be here. You all have. I think you 
will find the surroundings here and the people here very much 
relevant to your work.
    We in Congress have spent the last 6 weeks working to 
improve security at airports. That should not come as a 
surprise. Unfortunately, the House of Representatives last week 
rejected the far-reaching aggressive bill put forward by the 
subcommittee in the Senate that I serve on, and by the full 
Senate by a vote of 100-to-0 and passed, as I say, unanimously.
    This, to be honest, is a real setback for security from my 
point of view and I think from any reasonable point of view. 
But if we all keep the safety of the American people first in 
our minds, I'm sure that in the conference committee, which I 
think will start on Wednesday, that we will be able to reach 
some kind of an agreement and get aviation security at work in 
the airports as soon as possible. Because changes since 
September 11 have not been that dramatic, particularly in the 
smaller airports.
    In the meantime, we have to begin to explore the role that 
technology can play in addressing security challenges. Prior to 
September 11, our best intelligence sources believed that a 
terrorist attack using airplanes as missiles and airports as 
launching pads was something that was associated with Hollywood 
movies, but certainly nothing more than that. And certainly not 
worth spending millions and, more to the point, maybe billions 
of Federal dollars to prevent such a scenario from taking 
place.
    Now, obviously, all of that has changed and changed 
forever. Today, we have to think much more comprehensively and 
much more creatively than we have in the past. And there is a 
lot of instinct within us as Americans--not because we are not 
afraid of the future, but there is a great instinct in America 
now to hold on to what it is we have been doing, and our way of 
doing business. And the whole concept of making changes and 
trying out things which are new, putting in concept two ideas 
or an idea which may bring in some conflicting aspect to it, 
all this is something that generally we try to avoid when we're 
in a peacetime situation.
    Well, we are not. We are in a war on the international 
level, and some would argue that we are in a modified war on a 
domestic level also. So we have to be able to monitor and to 
share in real time information about who is getting on a plane, 
what are they bringing with them, who has access to airport 
security areas and also to aircraft, and ultimately whether all 
of those people really are who they claim to be.
    Last Tuesday, Secretary Mineta was quoted as saying that 
``an unacceptable number of deficiencies continue to occur at 
the Nation's airports.'' And he's quite correct. Appropriately, 
and very rightly, in my view, he expressed a willingness to 
ground aircraft, to ground them again and close entire 
concourses of major airports if the situation does not improve. 
Hence, the pressure on the Congress to pass legislation which 
can begin to be implemented and which gathers the confidence of 
the American people so they'll get back on airplanes.
    Technology in the hands of well-trained, highly skilled 
professionals who are accountable should allow us to address 
these problems. And we must address them as quickly as possible 
if we're going to restore that confidence to the traveling 
public and the financial health to an industry which we 
suddenly have discovered is a Behemoth of an economic factor in 
our American economic life; that is, the airline industry.
    [The prepared statement of Senator Rockefeller follows:]
          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Good morning. First, I want to thank President Hardesty and West 
Virginia University for hosting this hearing. I also want to express my 
appreciation to Jane Garvey and the other witnesses for coming to West 
Virginia today. West Virginia is on the cutting edge of technology that 
is critical to making major security improvements that we all recognize 
must be put into place immediately. Administrator Garvey will not only 
have an opportunity to talk about the challenges we all face, but also 
learn what West Virginia can offer to the Nation's security.
    As many of you know, we have spent the last month trying to figure 
out how to improve security at airports. Jane Garvey has been leading 
the way for the Administration. The attacks of 9/11 were not a failure 
of the FAA. The FAA controllers throughout this country and the flight 
crews did a remarkable job rerouting and landing all of the planes 
across the entire Nation. The controllers in New York that watched and 
listened to the attack in horror also must be commended. Prior to 9/11, 
everyone was searching for explosive devices being placed onboard a 
plane. Today, we want to know who is getting on a plane, who has access 
to airport security areas and aircraft, and if they do--are those 
people who they claim to be? Technology can be deployed to answer these 
questions.
    Last Tuesday, Secretary Mineta stated that ``an unacceptable number 
of deficiencies continue to occur'' at the Nation's airports, 
threatening to close entire concourses if necessary. Technology, in the 
hands of well-trained, highly skilled, professionals, can address these 
concerns.
    Airport security is a multi-layered process. Airports, for example, 
are responsible for the airport perimeter and the facility. Air 
carriers today are responsible for screening passengers and baggage.
    Focusing first on the airport--every airport has a series of doors 
that provide access for airport and air carrier personnel. Airports 
also have different types of gates that limit access for catering 
trucks and other vehicles. No one wants anyone without a legitimate 
reason to have access to baggage areas, catering services, or 
airplanes. Technology can tell us who should have access and close 
those doors to prevent unauthorized access.
    Focusing on passenger screening--we want to know who is getting on 
planes, and are those people who they say they are. Currently, security 
screening begins at check-in. All passengers are questioned to 
determine if a dangerous item has been passed to them unknowingly. 
Additionally, computer-assisted passenger prescreening (CAPPS) software 
uses classified criteria to identify certain ``selectees'' for more 
intense scrutiny.
    If a passenger checks baggage, it may be screened for explosives 
using x-ray equipment, but the availability, use and cost of this 
equipment are all problems that need to be addressed. To protect 
against bombings, the positive passenger-bag matching (PPBM) procedure 
matches passengers and their bags. Bags whose owners do not actually 
board the aircraft are removed.
    The most visible part of the screening process is the security 
checkpoint--where passengers and their carry-on bags are screened. 
Passengers themselves walk through metal detectors, and carry-on bags 
are screened by equipment that displays an x-ray image of the bag 
contents. Operators who see suspicious objects in the image hand search 
bags as a backup procedure.
    We need to ensure that security information is available on a real-
time basis. Prior to 9/11, we were headed for gridlock at airports 
throughout the country. Now, we are looking for people to fly, but that 
will change and we must have systems in place that can expedite 
passenger processing or long lines will be the norm, and not the 
exception.
    There are a number of technologies that we know can be deployed. We 
want these technologies deployed today so that we can positively 
identify people getting onboard planes and track persons obtaining 
access to sensitive areas. Specifically, we will examine the role of 
biometrics and other related technologies.
    This is a national problem and we in West Virginia want to help 
solve it. The State of West Virginia is in the forefront of biometrics 
technology. WVU houses the Center for Identification Technology 
Research, a National Science Foundation University/Industry Cooperative 
Research Center and we are home to the U.S. Army's Biometrics Fusion 
Center. In addition, several security product companies are based in 
West Virginia.
    Our first panel will set the stage and indicate the role technology 
can play in airport security. The FAA has been concerned about 
unauthorized access for years. The American Association of Airport 
Executives and the Air Transport Association have long advocated 
greater emphasis on security and understand the advantages of 
biometrics and related technologies. The International Biometrics 
Industry Association will describe how the industry is meeting this 
challenge. WVU will describe the State's participation in the 
biometrics field. Honeywell and EDS will give us the industry 
perspective.
    I cannot overemphasize how important this hearing is. We are trying 
to address a problem that is widely recognized, not only by the 
aviation security community but also by the public. Our economy depends 
on air travel. The country must be assured that air travel is safe. 
Until we are able to convince people that previous holes in security 
have been fixed, they will continue to be reluctant to commit 
themselves with the same level of confidence as before the events of 9/
11.

    Our first panel will set the stage and give us a sense of 
the activities underway at the FAA, the airports, and among the 
major airlines to improve security and to deploy available 
technologies.
    The FAA, embodied by Jane Garvey, has been concerned about 
unauthorized access for years without a great deal of public 
support or private support. And the FAA has a new task force 
focusing on security research and development and can give us a 
sense of the financial commitment that we need to make as a 
Nation to deploy security technologies throughout the system.
    The American Association of Airport Executives, which is 
Chip Barclay, and the Air Transportation Association--and in 
terms of the whole security aspect of it, the top guy is Mr. 
Doubrava--have long advocated greater emphasis on security. The 
airport professionals all do that. And they understand the 
practical advantages of biometrics and related technologies.
    On the second panel, we will focus on the security 
technology industry itself and related research. The 
International Biometrics Industry Association, West Virginia 
University, Honeywell, and EDS will tell us both what's 
possible today and what's in the works for deployment in the 
future.
    And with that, let me invite Administrator Garvey to begin 
our testimony today. And thank you for being here.

       STATEMENT OF HON. JANE F. GARVEY, ADMINISTRATOR, 
                FEDERAL AVIATION ADMINISTRATION

    Ms. Garvey. Thank you very much, Mr. Chairman, and it is a 
real pleasure to be here this morning. And I want to echo your 
statements about the president of this university. We are 
really delighted to be here, and I know when you asked us to 
attend, you spoke so enthusiastically about the wonderful work 
the university does in biometrics. And we are just delighted to 
be here, a number of us from the FAA, to see that firsthand. So 
we appreciate the opportunity to be with you this afternoon.
    I'd like to begin by talking a bit about what we've done 
with the wonderful support we've seen from Congress--in your 
committee in particular, Mr. Chairman--over the last several 
years. You've invested about $440 million, and that's been 
money, I think, that's been absolutely critical in the area of 
security. It's been used to purchase and deploy explosive 
detection systems, explosive trace detection devices, and 
threat image projection like x-ray machines.
    Certainly, in the days and in the weeks ahead, we will be 
working very closely with the Congress to complete action on 
our budget for the next fiscal year. Certainly, I think that, 
particularly after the days of September 11, the role of 
technology will be a significant factor in the development of 
any new aviation security bill. And we certainly look forward 
to working with you and other members of the committee as you 
prepare to go to Congress. As you know, there are two 
manufacturers of certified EDS products, and that's a really 
important technology.
    Senator Rockefeller. EDS?
    Ms. Garvey. Explosive detection systems. So that's an 
important technology for us. One of the manufacturers, as you 
may know, had some operational difficulty. But we are very 
encouraged by improvements that the vendor has made to the 
software and the hardware. And this week, for example, we have 
a team of IG inspectors as well as FAA inspectors who are in 
Dallas/Fort Worth assessing those improvements. We really want 
to see competition out there. So having EDS manufacturers who 
are certified and with equipment that works well is very 
important to us. We're pleased to see some improvement for that 
manufacturer.
    We are also aggressively pursuing other technologies that 
need to be deployed. For example, we have three vendors under a 
grant program at our task center developing a smaller version 
of EDS, and that, I think, is very promising for some of the 
smaller regional airports. And we're working with them to move 
their schedules forward. They're just in the early stages, and 
we'd like to see them aggressively move those schedules 
forward.
    Like many Members of Congress, we've received thousands of 
ideas and suggestions since September 11. In response to one of 
the recommendations made by the Rapid Response Team convened by 
Secretary Mineta, we were tasked to work with both government 
and private sector technical experts to identify beneficial 
security technologies that are ready for deployment, as well as 
those technologies that merit accelerated development.
    On October 25, we had our first meeting, our first security 
research and advisory committee. And I might add that these are 
made up of experts from universities, experts from 
manufacturing companies, from Boeing, from NASA; really from 
both across government and in the academic world. The committee 
will evaluate over a thousand recommendations that have been 
made to the FAA.
    I've asked for a report of initial short-term 
recommendations by the end of this month so we will have a 
sense of what can be deployed quickly by the end of this month. 
And then we've also asked that the advisory committee provide a 
report to identify promising longer-term technology, and I will 
look forward to the discussions later in the afternoon from 
some of the other panelists who have some information on other 
technologies.
    In addition, we're sponsoring our third international 
aviation security technologies symposium in Atlantic City later 
this month. The symposium will be important in helping to 
identify those technologies that can help meet the challenges 
we face.
    I think it's important to know that aside from the 
technologies that are certified by the FAA, there are a variety 
of technologies currently available either if an individual air 
carrier or an individual airport wants to use them. Some of 
those technologies I know are going to be on display here, and 
I am very eager to see them at the close of this session.
    We know, for example, that the airport in Charlotte, North 
Carolina has tested and has evaluated iris recognition as a 
means to verify airport personnel. We understand that was a 
very successful pilot program that they ran.
    Chicago and San Francisco are similarly testing hand and 
fingerprint technology for employee verification. We certainly 
think that this whole area of biometrics is very promising, 
exceedingly important, and we really are encouraging folks to 
pursue that even more aggressively.
    Some of the technologies hold great promise, but they also 
pose some significant challenges for all of us. Our goal, 
certainly, is 100 percent screening of all passengers, baggage, 
and airport and airline personnel. Certainly it will require an 
increased level of commitment by the entire industry, certainly 
by Congress, by the airlines, by airports, and by the American 
public.
    Mr. Chairman, again I want to thank you for having us here 
today, and we look forward to working with you and the 
Subcommittee as we move forward on what is an absolutely 
critical and important issue. Thank you.
    [The prepared statement of Ms. Garvey follows:]
       Prepared Statement of Hon. Jane F. Garvey, Administrator, 
                    Federal Aviation Administration
    Chairman Rockefeller, Senator McCain, Members of the Subcommittee: 
I am pleased to appear before you today to discuss the availability of 
security-related equipment and the status of the development of future 
technologies. In the aftermath of the tragedy that occurred on 
September 11, the Federal Aviation Administration (FAA), like the rest 
of the government, is rethinking how we approach security. The 
assumptions and strategies that were the basis of aviation security a 
few short weeks ago are being reassessed. No matter what overall 
direction and strategies we finally adopt, I want to assure you that 
the employees of the FAA continue to work tirelessly to identify and 
implement needed changes.
    At the outset, I would like to take a moment to discuss our most 
recent initiatives to ensure that all viable security technologies are 
being adequately considered, and that there is a plan in place to 
quickly take advantage of those promising technologies that can assist 
us in our fight against terrorism. In response to one of the 
recommendations made by the rapid response teams convened by Secretary 
Mineta in the aftermath of September 11, the FAA was tasked with 
working with both government and private sector technical experts to 
identify beneficial security technologies that are ready for 
deployment, as well as those technologies that merit accelerated 
development. We will identify technologies that we can deploy, both 
short term and long term, which can significantly augment the screening 
of passengers, checked luggage, cargo, and airport and airline 
employees.
    On October 25, the FAA convened its security research and advisory 
committee, chaired by John Klinkenberg, Vice President for Security for 
Northwest Airlines, to work toward our security goals. This committee 
will evaluate over 1,000 recommendations made to the FAA by various 
industry sources. I have asked that the committee provide me with a 
report on its initial recommendations by the end of November. I expect 
the report to identify the most promising technologies for providing 
early security benefits to the flying public, as well as their 
suggested implementation strategies. Likewise, the report will identify 
promising longer term technologies that are worthy of accelerated 
development.
    In addition to the efforts of the advisory committee, the FAA is 
sponsoring its third International Aviation Security Technology 
Symposium in Atlantic City, New Jersey from November 27 through 
November 30. This symposium will feature numerous sessions on diverse 
security topics including human factors, deployment of new explosives 
detection equipment, emerging technologies, aircraft hardening 
initiatives, cargo screening, and integrated security systems. 
Attendees will have the opportunity to view, first hand, vendors' 
security technologies. The symposium, which is also sponsored by the 
National Safe Skies Alliance, Airports Council International, Air 
Transport Association, and the American Association of Airport 
Executives, was planned before the terrorist attacks, but it is now 
that much more critical to identifying those technologies that can help 
meet the challenges we face in our approach to aviation security.
    With that said, I would like to provide a broader overview of our 
efforts to enhance security through technology. The goal of aviation 
security is to prevent harm to aircraft, passengers, and crew, as well 
as support national security and counter-terrorism policy. How we 
achieve that goal now requires that we take a comprehensive look at how 
airport screening is undertaken from workforce, technology, and 
procedural standpoints. The Administration is looking at all options 
and has not ruled out any alternative at this time.
    Four years ago, the White House Commission on Aviation Safety and 
Security (the Commission) issued 57 recommendations, the majority of 
which focused on improving aviation security. Most importantly, the 
Commission acknowledged that aviation security was a national issue 
that required a national focus and reliable funding. In the area of 
security technology, it was recommended that FAA deploy existing 
security technologies, establish standards for developing technologies, 
and work with other government agencies and industry to develop new 
technologies. Thanks to Congressional support of these recommendations, 
the FAA has spent $445 million in the past 5 years to purchase 
explosives detection systems (EDS), explosives trace detection (ETD) 
devices and threat image projection (TIP) ready x-ray machines. In 
fiscal year 2002, we planned to spend an additional $97.5 million.
    One-hundred-fifty EDS machines have been installed at airports 
across the country and we are working to deploy over 20 more in the 
coming months. In addition, we need to work with the companies that 
manufacture the systems to see how quickly they can produce more 
systems for continued deployment. Products of two EDS vendors have been 
certified and variations of these products are currently going through 
the certification process. Prior to September 11, EDS was primarily 
used to screen checked bags belonging to persons identified by the 
Computer Assisted Passenger Prescreening System (CAPPS). CAPPS allows 
the air carrier to focus EDS screening on a manageable number of 
passengers, for example, those whom we cannot discount as potential 
threats to civil aviation, based on parameters developed within the 
counter-terrorism community and reviewed by the Department of Justice 
to ensure the methods of passenger selection are non-discriminatory. 
CAPPS also selects passenger bags on a random basis for additional 
screening. In the aftermath of September 11, FAA has committed to 
increasing the number of passenger bags that are randomly screened. 
Furthermore, EDS machines are now running continuously at those 
airports to which they have been deployed, CAPPS has been adjusted and 
passengers and their carry-on items are being screened on a continuous 
basis at the boarding gate.
    In addition to EDS, FAA is currently purchasing ETD devices from 
the three vendors with FAA approved products. These devices can detect 
the presence of explosive materials in a passenger's checked or carry-
on bags. Eight-hundred-nineteen ETD devices have been installed in 175 
airports across the country.
    Another tool available to test and measure screener proficiency is 
software technology, known as the Threat Image Projection (TIP) system, 
installed on conventional x-ray machines. TIP electronically inserts 
images of possible threats (e.g., a gun, a knife, or an explosive 
device) on a x-ray monitor. The monitors show the image as if it were 
within a bag being screened. Its purpose is to provide training, keep 
screeners alert, and measure screener performance. High scores 
detecting TIP images equate to a high probability of detecting actual 
bombs and dangerous weapons. Not only can TIP data be potentially used 
to assess screener performance over time, but the results can also be 
used to analyze any correlation between performance and experience. New 
images will be added to the FAA-approved TIP library being installed on 
the x-ray machines at the checkpoints to improve screener vigilance and 
training. To date, 732 of these units have been deployed to 71 U.S. 
airports for checkpoint screening.
    Aside from those technologies approved by the FAA, there are a 
variety of technologies in various stages of development. As is the 
case with other areas in which the FAA has regulatory oversight, FAA 
sets a security standard airlines and airports must meet. It is routine 
in the airline industry for individual carriers or airports to exceed 
FAA standards in certain areas and I think we need to look at how that 
approach might be incorporated with respect to aviation security. 
Although, FAA does not currently require airports or airlines to have 
EDS, if they do have the equipment, they must use it. We are working 
hard to ensure that carriers and airports that now want these systems 
will be able to obtain them, but to date it has been more expedient to 
encourage their use than to mandate their use by regulation. We also 
need to determine whether other security technologies currently in 
development can be effectively used by airlines and airports. For 
example, there are a number of backscatter technologies, chem/bio trace 
detection, and portal screening technologies that are in different 
stages of development. Iris and fingerprint identification technologies 
are currently being tested in the operational environment. The Rapid 
Response Team recently recommended that we should move to a greater use 
of positive identification technologies. We are considering this 
recommendation and we are working with industry to see whether and how 
all of these efforts can be incorporated into airline and airport 
operations to improve aviation security, while upholding America's 
steadfast commitment to the protection of civil rights.
    Just to make sure that we are not missing anything that is out 
there, FAA issued an announcement that appears on our web site 
requesting information about any product or technology that could be 
helpful in improving aviation security. As you can imagine, this 
requires sorting through a great deal of information. So, while there 
does not appear to be a single technology that addresses all of our 
security concerns, we are committed to working through the various 
options available to us.
    The Secretary of Transportation and I are doing everything in our 
power to bring the nation's air transportation system back into full 
operation with the highest levels of safety possible. Last week, 
Secretary Mineta directed FAA special agents to crack down on airport 
and air carrier security deficiencies by taking decisive steps 
including clearing concourses, re-screening passengers, and even 
holding flights where appropriate. This action reflects both the 
Department's and the FAA's unyielding commitment to civil aviation 
security and the restoration of public confidence in the nation's air 
transportation system. It is clear that through constant vigilance, the 
application of new technologies and procedures, and with the help of 
its national and international partners, that the FAA will succeed in 
its civil aviation security mission.
    Because civil aviation exists in a dynamic environment, the FAA 
must develop a security system that optimizes the strengths of a number 
of different technologies. This system must be responsive to the means 
of attack and must be able to anticipate future risk to the civil 
aviation environment. In a democracy, there is always a balance between 
freedom and security. Our transportation systems, reflecting the value 
of our society, have always operated in an open and accessible manner, 
and we are working hard to ensure that they will do so again.
    This concludes my prepared remarks. I would be happy to answer any 
questions you may have.

    Senator Rockefeller. Thank you, Administrator Garvey. We're 
very grateful to you for, in what must be an unbelievably 
hectic schedule, taking your time to come here. It is very 
important.
    Mr. Charles Barclay, as I indicated, is President of the 
American Association of Airport Executives. We welcome you. His 
nickname is Chip. I have to call him that because I do not know 
how to say Charles. But we are very glad you are here.

          STATEMENT OF CHARLES M. BARCLAY, PRESIDENT, 
           AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES

    Mr. Barclay. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here as well and want to begin by thanking 
you and your very professional staff for all their help getting 
the security bill done in the Senate. We look forward to 
getting the bill done as well in the conference.
    And we also appreciate the response for the small 
communities, both the air service issues and, now more 
recently, the reimbursement of the security costs since 
September 11. It is a really major issue in the smaller 
communities, and we appreciate your leadership on that.
    Since September 11, we all know that we have got to do a 
better job in three areas. We've got to put more security on 
airplanes. But more importantly, to try to keep bad things from 
happening in the air, we have to provide a better perimeter 
around parked aircraft, which is a big part of my members' 
jobs. And we have to apply a more professional screening 
process for both passengers and baggage. And that is what I 
would like to talk about in terms of technology.
    But first I'd like to say that technology is very important 
for getting greater security, but it's also important for 
getting convenience back into the system. If we continue to 
have 2-hour lines at airports on each end of a business trip, 
that makes a 1-day business trip totally impractical in our 
system. The economics won't work if we don't get that 
convenience, together with security, back in the system. The 
only way we can process 700 million passengers and 2 billion 
bags is to do a better job of applying technology for our 
security concerns. The screening process is not really my 
members' part, but we think it's a critical element of getting 
back to that convenient system and getting more security. There 
are three ways you can really use technology in screening 
people and baggage. One, you can look for bad people with 
facial recognition; with better matching of lists that's been 
talked about from various security agencies; and with a variety 
of other ways. We can look for bad things with the EDS machines 
Jane was talking about: X-rays and body scans. While there's 
some great technology out there, it is still very hard to find 
a needle in a haystack when you're dealing with 700 million 
people.
    Senator Rockefeller. And that's just the United States?
    Mr. Barclay. Just in the U.S. The third way is to let non-
threats identify themselves. In fact, technology works well 
when we interview someone once and allow that person to get a 
voluntary smart credential. We were talking about the 
terminology we used on the Rapid Response Team. It's not a 
travel card, it's just a credential. If you ask people to give 
us a lot of information once and a biometric, you can then use 
that positive identification to determine who is not a risk and 
screen these people quickly while you apply most of your 
intensive resources on people you don't know anything about who 
are coming into the system. So people would still have an 
option to get the smart credential, a heavy investigation once, 
then get greater convenience every time you fly.
    If you're uncomfortable with giving information or you're 
not in the group you want to treat as low risk, then you're 
going to get a different process at the airport and get much 
greater intensity in screening you and your bags. And that is 
also a way to really have a threat assessment to know where we 
should apply our resources first while we're ramping up this 
new security system.
    The other part that's more directly affecting my members is 
employee background verification and using that information to 
make sure that the right people are on the ramps and around the 
perimeters of airplanes while they're parked. We strongly 
support Administrator Garvey's call to get all employees who 
have access to secure areas full criminal history checks. It's 
done here in West Virginia, as a matter of fact. We need to get 
those criminal history record checks and get them done quickly. 
She said that that needs to be done within 9 months. We are 
strong supporters of that.
    We're also doing the best we can to help the FAA. We think 
it's very important to have a copy of that raw data that also 
comes in here to the FBI so the airports can use that database 
for all the people that are cleared. You want to use that over 
and over again. Rather than just having a card swipe and a PIN 
to access the name, you have a card swipe and a biometric, 
either a fingerprint or iris recognition. A number of the other 
biometric technologies can be very good for making sure we've 
got the people that we know and we've checked out having access 
to parked airplanes.
    So one of the points that I'd like to leave you with is 
that we do need to put greater security and convenience back 
into the system. I would also like to make the point that there 
are really two threats to our system right now, and either one 
could shut it down. One of those threats is that we don't do 
enough in adding security to get public confidence back so that 
we get all the people back flying who should be. The danger is 
that you won't have enough people on the airplane.
    The other danger that we have in front of us is moving too 
quickly in so many areas and trying to apply so much technology 
at once that we bottleneck the system and don't put enough 
people on airplanes. That can also bring the system down and 
feed into the goal that the terrorists had on September 11.
    So we think we need to add technology. We need to do it 
smart. We need to approach the highest threats first as we get 
these new systems in place, and at the same time, keep air 
transportation running in the United States.
    Thank you very much for having me here. It's been a real 
pleasure.
    [The prepared statement of Mr. Barclay follows:]
         Prepared Statement of Charles M. Barclay, President, 
               American Association of Airport Executives
    Chairman Rockefeller and Members of the Senate Commerce 
Subcommittee on Aviation, thank you for inviting me to participate in 
the hearing today on aviation security. I am testifying today on behalf 
of the American Association of Airport Executives (AAAE). AAAE 
represents the men and women who manage the primary, commercial 
service, reliever and general aviation airports. I appreciate this 
opportunity to discuss ways that we can use new technology to improve 
aviation security.
    The tragedy of September 11 has changed air transportation forever. 
We never designed our aviation security system to withstand a threat 
from teams of special operations-type forces, comprised of suicide 
pilots, trained for years, with the goal of using the plane as a bomb. 
It is still hard to believe such people exist, but now that we know 
they do, airport and aircraft security must be hardened to defend 
against this and other potential threats that, in the past, we would 
have labeled as unreasonable. A military-type threat requires a near-
military defense. This job would be easier if we could focus on 
security alone, but we cannot. Changes must both increase security and 
permit aviation to operate efficiently as public transportation.
    Airports, airlines and general aviation must begin to plug the 
security holes, one by one, despite the complexity, cost and daunting 
magnitude of the job. While the costs and complexities are huge, they 
pale in comparison to the greatest threat to our system's future. The 
800-pound gorilla of problems is today's lack of public confidence in 
air transportation safety, and the concomitant revenue impact that 
attitude has on all aviation businesses. Surveys released at the end of 
October showed only one-third of the public have a high level of 
confidence in aviation security. Our industry cannot survive and 
perform its essential economic role unless we turn that perception 
around--and soon.
    Air transportation is the safest form of transport in history. More 
people have traveled farther and more safely by air than any other 
system invented. Yet, we still cannot expect the system to regain the 
broad public confidence lost on September 11 until we make significant, 
systemic improvements in security. I do not believe the public demands 
an unachievable ``perfection'' in air travel, but they are demanding 
more security onboard the aircraft, more professional screening of 
passengers and baggage and better perimeter control around parked 
aircraft.
    The Administration, airlines, airports, and Congress are already 
taking the necessary first steps to improve aviation security. 
Immediately after the terrorist attacks occurred on September 11, the 
Federal Aviation Administration (FAA) closed our nation's commercial 
airspace system and issued two emergency amendments that included 
several security initiatives. As all of you know, airports and airlines 
were required to implement these new security measures before the FAA 
allowed them to resume their operations. Airports, for instance, were 
immediately required to deploy more law enforcement officials and K-9 
units, increase security inspections throughout their facilities, 
strengthen access control measures and remove all vehicles parked near 
their terminal buildings.
    With the possibility of additional terrorist attacks in the United 
States, the Administration has taken additional actions to improve 
aviation security. The President announced his decision to deploy 
National Guard personnel to about 420 airports nationwide, and the FAA 
issued additional emergency amendments requiring airports to implement 
even more security measures. Last week, Secretary of Transportation 
Norm Mineta said the FAA also plans to crack down on security screening 
failures at airports around the country and consider re-screening 
passengers, emptying concourses and holding flights if necessary.
    Congress is also taking legislative steps to improve aviation 
security and restore public confidence in our aviation system. The 
Senate Commerce Committee, under the guidance of Chairman Hollings, 
Ranking Member McCain, Aviation Subcommittee Chairman Rockefeller and 
Ranking Member Hutchison, drafted a bipartisan bill that the Senate 
unanimously approved just 1 month after the terrorist attacks. The fact 
that Committee members and staff were able to draft an aviation 
security bill and usher it through the Senate in only a few weeks is a 
testament to your hard work and dedication. All of you deserve to be 
commended for the leadership you have provided in the past several 
weeks.
    Much of the debate that has occurred in Congress on aviation 
security has focused on those responsible for screening passengers and 
their carry-on baggage, cockpit security and Federal air marshals. In 
light of the hijackings that occurred in September, it is now more 
important than ever that we improve the training, testing, and the 
proficiency of those individuals conducting the screening of passengers 
and baggage. Hiring competent screeners, strengthening cockpit security 
and deploying more Federal air marshals will certainly help improve 
aviation security. These actions may solve part of the problem, but we 
must use new technology to ensure that the hijackings and terrorist 
attacks that occurred on September 11 will not happen ever again.
    Just a few days after the terrorist attacks, Secretary Mineta 
formed two teams to examine ways to improve airport and aircraft 
security. I served on the Rapid Response Team on Airport Security, 
which issued its report on October 1. We concluded that new 
technologies must be deployed more widely to augment aviation security 
and that there is an urgent need to issue ``smart credentials'' to 
facilitate expediting the processing of passengers. I think there are 
many new technology options that Congress and the Administration should 
explore in an effort to enhance security at our nation's airports. The 
Senate Commerce Committee included several new technology provisions in 
the Senate-passed aviation security bill, and I would like to take a 
moment to outline a few other proposals for your consideration.
    Technology can be effectively used in three ways: (1) to find 
dangerous ``things;'' (2) to find dangerous people; or (3) to verify 
the identity of people who do not present a risk. The first two are 
relatively difficult even with good technology due to the large number 
of people and bags being processed in air transportation--they amount 
to finding the proverbial needle in a haystack. The third, however, is 
relatively easy with today's technology as long as we come to agreement 
on the criteria of a low-risk profile, and it makes the haystack 
smaller for application one and two.
              use smart credentials to identify passengers
    At the top of my technology list is a ``smart credential'' as 
called for in the Rapid Response Team report. We cannot run an 
efficient public transportation system if we try to treat all 700 
million passengers a year like potential terrorists. We need a 
voluntary system that allows frequent travelers to provide enough 
information on themselves, so government and industry can agree they 
belong in a ``low-risk'' pool.
    In return, a so-called ``smart card'' with biometrics can confirm 
identity and provide access to an expedited screening process. The 
system can then concentrate its resources for rigorous screening on 
passengers who do not qualify to be listed as ``low-risk,'' or 
passengers we do not know anything about (including those individuals 
simply uncomfortable with providing information on themselves).
    Such a voluntary database of passengers can reside either in or out 
of government control, but the Federal Government must be involved in 
validating the criteria for information used in this process. I think 
smart credentials are key to identifying those who may be potential 
threats to aviation security, and I am pleased that the aviation 
security bill passed by the Senate calls for the Department of 
Transportation (DOT) to study options for improving positive 
identification of passengers including the use of biometrics and smart 
cards.
          deploy explosive detection systems at more airports
    There are many innovative technologies that make it easier for 
screeners to identify explosives and other dangerous weapons. While 
these systems are commonly viewed as only as effective as the trained 
personnel who operate them, they are an increasingly essential facet of 
the aviation security equation. The integration of a new generation of 
Explosive Detection Systems (EDS), as called for by the 1996 
Presidential Commission on Aviation Security and Terrorism, has been an 
important addition to our efforts to improve the security of our 
aviation system.
    As with any new technology, planning and training are critical to 
realizing the potential of explosive and other weapons detection 
systems. Today, forty-six airports around the country are using new 
generation explosive detection systems. These and other new 
technologies must be integrated into the nation's airports at a much 
quicker pace and with increased attention to the resources, training 
and infrastructure requirements necessary for their effective use.
      use new technology to tighten access to secure areas in and 
                        around airport terminals
    In addition to improving the screening process for passengers and 
baggage, we need to do a better job of controlling access to secure 
areas in and around airport terminals. Last year, the DOT Inspector 
General highlighted the shortcomings in access control technology and 
procedures at some airports around the country. Airport operators take 
this issue seriously, and we need to continue to improve procedures and 
deploy new technology to tighten the perimeter of secure areas. It is 
critical that we use new technology such biometrics and smart cards to 
control these access points. However, we should be aimed at developing 
a universal database to all airport and airline employees with secure 
area access, rather than airport-by-airport individual databases.
   use biometric fingerprint technology to expedite criminal history 
                             record checks
    Just as we need to have well-trained screeners, we must also focus 
on eliminating undesirable behavior that can nullify even the best 
technology used to control secure areas. Toward that goal, it is 
essential that we concentrate our efforts on ensuring that only those 
persons who have undergone thorough criminal history record checks are 
granted access to secure areas.
    Last year, Senator Hutchison introduced S. 2440, the Airport 
Security Improvement Act of 2000. Like many on this Committee, we 
strongly supported that legislation because it called on the FAA to 
work with air carriers and airport operators to strengthen procedures 
to prevent unauthorized access to secure areas of airports and 
commercial aircraft. The bill, which was enacted into law last year, 
requires criminal history record checks for new security screeners and 
others who have access to secure areas in the top 20 most at risk 
airports. The legislation requires criminal history record checks for 
new employees at other airports to be phased-in over 3 years. It also 
requires the FAA to expand and accelerate the Electronic Fingerprint 
Transmission Pilot program.
    Administrator Garvey recently announced that the FAA will order 
criminal history record checks on all workers who have access to secure 
areas of airports and commercial aircraft now rather than phasing those 
checks in over the next few years. The Senate Commerce Committee also 
included a provision in the Senate-passed aviation security bill that 
would require criminal history record checks within 9 months. Since 
airports, airlines and vendors employ approximately 600,000 to 750,000 
people, airports will need electronic fingerprint assessment technology 
to expedite these criminal history record checks. Only a small number 
of airports currently have biometric fingerprint systems to speed 
criminal history checks. Once airports submit these fingerprints 
electronically to the Federal Bureau of Investigation (FBI), it is 
imperative that the agency have the necessary resources to conduct 
their background checks in timely manner.
    After the FBI conducts a criminal history record check on a 
potential new employee, airports are limited in their ability to 
disqualify that person by a very specific list of criminal convictions. 
That list, which airports use to determine who is allowed access to 
secure areas at airports, should be broadened to include other criminal 
convictions and other acts that may pose a threat to aviation security. 
Since various Federal agencies such as the U.S. Customs Service keep 
records of persons with a propensity to commit criminal acts and or 
terrorism, airports should be able to submit the name of potential new 
employees to a single entity to determine whether that person is on one 
of those Federal watch lists. Further, airports should have the option 
to go beyond the Federal requirements and perform background or 
criminal history checks on any airport employee.
                exploit other breakthrough technologies
    As I mentioned previously, the Rapid Response Team on Airport 
Security concluded that new technologies must be deployed more widely 
to augment aviation security. Specifically, we recommended that the FAA 
establish an Aviation Security Technology Consortium to identify and 
test new security-related technologies at our Nation's airports. We 
also recommended that the Department of Defense expedited the review of 
classified technologies with potential application to aviation security 
with a view to identifying and, consistent with national security 
requirements, declassifying applications likely to be of value.
 disseminate intelligence to a designated airport security coordinator
    New technology requires good intelligence. The FBI, Central 
Intelligence Agency and other intelligence agencies each play their own 
part in monitoring, identifying and assessing threats to national 
security. Some of the information processed by the intelligence 
community identifies potential threats to the safety of civil aviation, 
and intelligence officials share some of this information with offices 
in the DOT and FAA. However, very little of this critical data is 
shared with the front line airport and airline personnel responsible 
for implementing security procedures.
    Aviation security needs to be among the top priorities of the 
intelligence agencies responsible for identifying terrorist threats. 
Coordination of intelligence dissemination with the Secretary's Office 
of Intelligence and Security, appropriate FAA staff and finally airport 
security coordinators will dramatically increase the likelihood that 
real threats to the system are met with real local response and 
preparedness.
    As a direct result of the recommendations from the 1996 
Presidential Commission on Aviation Safety and Security, aviation 
security consortia were formed and vested with the authority to work 
cooperatively with Federal regulators to meet the goals of increased 
aviation security. This increase in the level of effective 
communication and cooperation has steadily improved the baseline of 
aviation security. With the events that occurred last week, this type 
of government and industry cooperation is particularly important. 
Airport security professionals play a key role in developing, 
implementing and maintaining effective security measures, and their 
input should be used as we develop new ways to increase aviation 
security.
    Mr. Chairman, I would like to make one final point. As we discuss 
ways to use new technology to improve aviation security in the future, 
I hope we will not lose sight of the fact that airports are taking a 
number of steps to improve aviation security right now. Those Federal 
mandates, which I described earlier in my testimony, have resulted in 
significant cost increases for the nation's airports. These new 
security requirements are important to our efforts to enhance aviation 
security and absolutely necessary given the horrific events that 
occurred in September.
    Although the Senate-passed aviation security bill authorizes funds 
to reimburse airports for their new security costs, it unfortunately 
does not include the necessary appropriations. I hope Members of the 
Senate Commerce Committee will work to ensure that airports in their 
respective states and throughout the country receive the reimbursement 
they need to comply with the new security initiatives imposed by the 
FAA. As you move forward later this week and next to the conference on 
the aviation security bills passed by the House and Senate, we look 
forward to working with you and your talented staff to craft a final 
product that enhances the security at airports and airlines across the 
country and instills the confidence in the American traveling public to 
fly in the safest, most secure system in the world.
    Chairman Rockefeller and members of the Senate Commerce Committee 
Subcommittee on Aviation, thank you again for inviting me to 
participate in the hearing today on aviation security. All of us at 
AAAE look forward to working with you and others in the aviation 
industry during the days and weeks ahead on ways we can use new 
technology to enhance aviation security.

    Senator Rockefeller. Thank you, Chip.
    Our third witness is Mr. Richard Doubrava, who is the 
Managing Director of Security for the Air Transport 
Association. You're an expert, and I look forward to hearing 
from you.

          STATEMENT OF RICHARD J. DOUBRAVA, MANAGING 
              DIRECTOR, AIR TRANSPORT ASSOCIATION

    Mr. Doubrava. Thank you, Senator Rockefeller. On behalf of 
the Air Transport Association and our member carriers, I'd like 
to thank you for the opportunity to participate in this 
important meeting hosted by the West Virginia University.
    Senator Rockefeller. Can you turn that mike up a little 
closer to you?
    Mr. Doubrava. Representing an industry that is absolutely 
reliant on the development and application of new technologies, 
we take special interest in the subject matter under discussion 
today.
    Since the tragic events of September 11, the industry, in 
concert with the Federal Government, has undertaken a number of 
steps to enhance aviation security.
    Recent Congressional passage of antiterrorism legislation 
in association with the pending House-Senate conference to 
reconcile differing approaches to Federalize the aviation 
security screening programs, are moving us closer to a more 
national approach to homeland security.
    Let me also commend you, Senator, for your leadership in 
these vital areas by your service on the Senate Committee on 
Commerce, Science, and Transportation in the U.S. Senate as 
well.
    As we move forward as a Nation to determine the outlines of 
our homeland security, technology will play an important part 
in the efforts to enhance the Nation's security baseline.
    Our challenge is to deploy technology in a sound and 
rationalized way while also recognizing that no single 
technology nor security procedure can provide a foolproof 
security system. The public expects an aviation security system 
that effectively deploys a variety of technology applications 
and operating procedures capable of addressing all 
vulnerabilities. This system must also be adaptable in order to 
adjust to varying and changing threats.
    For purposes of our discussion today, I shall focus on some 
of the immediate goals of the industry which will depend 
greatly on the application of appropriate technologies.
    Computer assisted screening which permits the application 
of technology and associated procedures on identified 
individuals is the central component of any effective aviation 
security system and our efforts to protect the traveling public 
from terrorism. Such a system must be rigorous and have the 
full array of intelligence resources available to filter 
individuals under the protection and oversight of our national 
government.
    It is not enough to focus on searching for threat items; we 
must refocus our attention on those individuals that threaten 
our national and aviation security. Here the government must 
utilize the latest in technology applications to collect, 
harmonize, and process all necessary data to scan and identify 
passengers for whom additional security scrutiny is necessary.
    Another area where appropriate technology can benefit the 
aviation security process is the creation of a voluntary 
program to permit the use of a universal travel card using a 
``smart card'' approach by travelers after having appropriate 
background checks completed and verified. The program would 
greatly enhance the current airport security process by 
permitting designated ``pre-cleared'' individuals to utilize 
enhanced security processes based on their completed security 
background checks. Fingerprint technology and other forms of 
biometric devices could be used to support such a program.
    Another area of concern is the ability to prevent 
unauthorized access to secure airport and air carrier areas by 
limiting access to only those individuals permitted to be in 
such areas. We believe that current technology can be utilized 
to confirm and verify the identity of such personnel throughout 
the operational and secure areas of the airport environment.
    We believe that the Federal Government should determine the 
necessary parameters of such a program to deploy it on a 
national basis. We do not want to repeat the hodgepodge 
approach taken in the late 1980s and early 1990s to the Airport 
Security Access Program. The important intent of this program 
was undermined by a location-by-location approach that did not 
meet the needs of the air carriers for standardization and 
dramatically increased industry costs. Further, this would give 
additional confidence to the public in an area of repeated 
expressed concern.
    Such programs could be readily expanded to include flight 
crews, law enforcement officers, and other specific entities 
needing to move through the national aviation system. Funding 
for such a program must be allocated on a Federal basis as part 
of our Nation's homeland security efforts.
    Failure to do so will leave the industry and the airport 
community dependent on limited resources and multiple 
approaches which undermine the intent and integrity of such a 
system.
    For purposes of brevity, I will not address the challenges 
of passenger, baggage, and cargo screening. The industry is 
committed to working with Congress and the Administration in 
these complex areas. These issues will continue to be a major 
focus as we move forward together to find solutions to these 
complicated technology issues.
    I do want you and the Subcommittee to know that the air 
carriers are working closely with Secretary Mineta and 
Administrator Garvey in aggressively pursuing solutions to some 
of these challenges. We are actively participating in 
finalizing recommendations of the special Rapid Response Teams 
created after the tragic events of 9/11, and are certain that 
many of them will be implemented in the timeframe set out by 
the President and Secretary Mineta.
    We also commend FAA Administrator Garvey for her active 
efforts and constructive approach with the airline industry in 
the days since September 11. Under her direction, a special 
task team has been created to identify and review every 
available aviation security technology to determine what areas 
within the aviation environment could benefit from such 
applications. I am honored to participate in this effort, and 
look forward to casting a wide net for new ideas and approaches 
to aviation security.
    Senator Rockefeller, in closing, let me summarize a few of 
our thoughts. Our Nation is involved in a complex and 
challenging war against those who seek to terrorize and murder 
innocent Americans for their own distorted personal goals.
    Civil aviation is a primary target for such actions since 
it reflects the ability of people and ideas to move freely 
throughout the world. Such freedom of movement and thought is a 
threat to these dark forces of hate and terror. It is incumbent 
upon our national government to move quickly and judiciously to 
strengthen aviation security and make it a national priority--
not just today, but in the weeks, months, and years ahead.
    We stand ready to work with you and your colleagues in the 
Congress and the Administration to accomplish this task. 
Through our combined efforts and commitments, we are more 
likely to prevent future acts of aviation terrorism and 
reassure the American people that our system is as safe and 
secure as we can make it.
    I would be pleased to respond to any questions you might 
have at this time.
    [The prepared statement of Mr. Doubrava follows:]
     Prepared Statement of Richard J. Doubrava, Managing Director, 
                       Air Transport Association
    Senator Rockefeller, on behalf of the Air Transport Association and 
its member airlines,\1\ I would like to thank you for the opportunity 
to participate in this important hearing here in Morgantown, West 
Virginia.
---------------------------------------------------------------------------
    \1\ Airborne Express, Alaska Airlines, Aloha Airlines, America West 
Airlines, American Airlines, American Trans Air, Atlas Air, Continental 
Airlines, Delta Air Lines, DHL Airways, Emery Worldwide, Evergreen 
International Airlines, FedEx Corporation, Hawaiian Airlines, JetBlue 
Airlines, Midwest Express Airlines, Northwest Airlines, Polar Air 
Cargo, Southwest Airlines United Airlines, United Parcel Service 
Airlines, US Airways.
---------------------------------------------------------------------------
    Representing an industry that is absolutely reliant on the 
development and application of new technologies, we take special 
interest in the subject under discussion today.
    Since the tragic events of September 11, the industry, in concert 
with the Federal Government, has undertaken a number of steps to 
enhance aviation security. These include:
    <bullet> Installation of new security devices to strengthen cockpit 
doors on nearly 100 percent of aircraft fleet.
    <bullet> Implementation of a domestic Federal Air Marshal (FAM) 
program.
    <bullet> Expansion of CAPPs screening program to 100 percent of all 
passengers and coordination with Federal agency watchlists.
    <bullet> Deployment of the National Guard troops to the nation's 
airports.
    <bullet> Revalidation of air carrier employee identification media 
and match against FBI watchlist.
    <bullet> Additional and Ongoing Security Enhancements to the FAA 
air carrier and airport programs.
    Further, recent Congressional passage of anti-terrorism legislation 
in association with the pending House-Senate conference to reconcile 
differing approaches to Federalize the aviation security screening 
program are moving us closer to a more national approach to 
``homeland'' security. Let me also commend you Senator Rockefeller for 
your leadership in these vital areas by your service on the Senate 
Committee on Commerce, Science and Transportation and in the U.S. 
Senate as well.
    Our members believe that a unified Federal security program 
utilizing the government's resources and expertise including a strong 
intelligence capability is critical to enhancing aviation security. In 
addition, a standardized approach to air carrier and airport security 
programs will further strengthen these efforts as well. At the heart of 
these efforts is the subject of your hearing today--``Dynamic New 
Technologies.''
    As we move forward as a Nation to determine the outlines of our 
``Homeland Security'', technology will play an important part in 
efforts to enhance the nation's security baseline. Our challenge is to 
deploy technology in a sound and rationalized way while also 
recognizing that no single technology nor security procedure can 
provide a foolproof security system. The public expects an aviation 
security system that effectively deploys a variety of technology 
applications and operating procedures capable of addressing all 
vulnerabilities. This system must also be adaptable in order to adjust 
to varying and changing threats.
    For purposes of our discussion today, I shall focus on some of the 
immediate goals of industry which will depend greatly on the 
application of appropriate technologies.
    Computer assisted screening which permits the application of 
technology and associated procedures on identified individuals is the 
central component of any effective aviation security system and our 
efforts to protect the traveling public from terrorism. Such a system 
must be rigorous and have the full array of intelligence resources 
available to filter individuals under the protection and oversight of 
our national government.
    Only a unified Federal approach reaching across the jurisdictional 
lines of the FBI, CIA, INS, U.S. Customs and other agencies will 
succeed. Congress and the Administration will need to address the 
outstanding appropriate legal issues to insure that such a program is 
applied in a fair, but rigorous manner. It is not enough to focus on 
searching for threat items; we must refocus our attention on those 
individuals that threaten our national and aviation security.
    Here the government must utilize the latest in technology 
applications to collect, harmonize and process all necessary data to 
scan and identify passengers for whom additional security scrutiny is 
necessary.
    Another area where appropriate technologies can benefit the 
aviation security process is creation of a voluntary program to permit 
the use of a universal travel card using a ``smart card'' approach by 
travelers after having appropriate background checks completed and 
verified. This process would greatly enhance the current airport 
security process by permitting designated ``pre-cleared'' individuals 
to utilize enhanced security processes based on their completed 
security background checks. Fingerprint technology and other forms of 
biometric devices could be utilized to support such a program.
    This could be accomplished by the use of a variety of technologies 
readily available which are secure and tamper-proof. Clearly, the 
current security clearance process in place at our nation's airports 
since the tragic events of 9/11 could be greatly enhanced by 
eliminating the need to treat every passenger as a high risk 
individual. Our security program should focus efforts on those that 
could pose a threat to aviation security readily identify and expedite 
those known not to be such.
    Another area of concern is the ability to prevent unauthorized 
access to secure airport and air carrier areas by limiting access to 
only those individuals permitted to be in such areas. We believe that 
current technology can be utilized to confirm and verify the identify 
of such personnel throughout the operational and secure areas of the 
airport environment.
    We believe that the Federal Government should determine the 
necessary perimeters of such a program and deploy it on a national 
basis. We do not want to repeat the hodgepodge approach taken in the 
late 1980s and early 1990s to the Airport Security Access Program. The 
important intent of this program was undermined by a location-by-
location approach that did not meet the needs of the air carriers for 
standardization and dramatically increased industry costs. Further, 
this would give additional confidence to the public in an area of 
repeated expressed concern.
    Such programs could be readily expanded to include flight crews, 
law enforcement officers and other specific entities needing to move 
through the national aviation system. Funding for such a program must 
be allocated on a Federal basis as part of our nation's ``homeland 
security'' efforts. Failure to do so will leave the industry and 
airport community dependent on limited resources and multiple 
approaches which undermine the intent and integrity of such a system.
    For purposes of brevity, I will not address the challenges of 
passenger, baggage and cargo screening. The industry is committed to 
working with the Congress, and the Administration in these complex 
areas. These issues will continue to be a major focus as we move 
forward together to find solutions to these complicated technology 
issues.
    I do want you and the Committee to know that the air carriers are 
working closely with Secretary Mineta and Administrator Garvey in 
aggressively pursuing solutions to some of these challenges. We are 
actively participating in finalizing recommendations of the special 
Rapid Response Teams created after the tragic events of 9/11 and are 
certain that many of them will be implemented in the timeframe set out 
by the President and Secretary Mineta.
    We also commend FAA Administrator Garvey for her active efforts and 
constructive approach with the airline industry in the days since 
September 11. Under her direction, a special task team has been created 
to identify and review every available aviation security technology to 
determine what areas within the aviation environment could benefits 
from such applications. I am honored to participate in this effort and 
look forward to casting a wide net for new ideas and approaches to 
aviation security.
    Senator Rockefeller, in closing let me just summarize a couple of 
thoughts. Our Nation is involved in a complex and challenging war 
against those that seek to terrorize and murder innocent Americans for 
their own distorted personal goals. Civil aviation is a primary target 
for such actions since it reflects the ability of people and ideas to 
move freely throughout the world. Such freedom of movement and thought 
is a threat to these dark forces of hate and terror. It is incumbent 
upon our national government to move quickly and judiciously to 
strengthen aviation security and make it a national priority--not just 
today, but in the weeks, months and years ahead.
    We stand ready to work with you and your colleagues in the Congress 
and the Administration to accomplish this task. Through our combined 
efforts and commitment we are more likely to prevent fixture acts of 
aviation terrorism and reassure the American people that our system is 
as safe and secure as we can make it.
    I would be pleased to respond to any questions you might have at 
this time.

    Senator Rockefeller. Thank you very much, Dick.
    Administrator Garvey, let me just--or to all of you, pose a 
philosophical question. When people listen to your testimony 
and they hear a lot of technology, goes along with thinking 
about the future, people say, now, wait a second. You know, 
this is the way my life has been. And somebody starts messing 
around with that, that gets into my privacy and that begins to 
upset my life, and I don't like that. And then without 
necessarily thinking about the whole broad picture, some people 
would say, well, I don't want to make those changes. And what 
I'd like to do is just--when I took off from Washington last 
night and flew to Pittsburgh, I was selected out at random.
    Ms. Garvey. Our system is working.
    [Laughter.]
    Senator Rockefeller. It was about time it happened. And I 
was really gone through, which I was very happy about. I 
thanked people--not under bated breath, but I thanked them all 
the way through that they were doing it.
    Now, what got me through in all cases was this. It is my 
Senate identification card. United States Senator J. 
Rockefeller. And oh, by the way, this was given to me 17 years 
ago when I was in the Senate. Now, my question is--this could 
be forged. It isn't, but it could be. And, you know, life has 
changed. So why is it that the American public can hear about 
words like smart card or biometrics or all kinds of things 
which imply a different way of doing things--you know, a 2-hour 
waiting line--although those can be cut down in length if we do 
the right things--inconvenience, change of lifestyle, ways of 
doing things, putting off business travel.
    Why is it that, in your view, people should be able to 
think at least as much about their own personal security and 
the security of their friends and children and country people 
as well as the inconvenience and the so-called invasion of 
privacy? I mean, we're facing that on the Internet. We are 
facing that everywhere. But as soon as you say ``invasion of 
privacy,'' people start backing off from what could be very 
intelligent solutions to make their lives much safer. How do we 
deal with that problem?
    Ms. Garvey. Well, this is--and Chip and I were talking 
about this coming down. I think one way to deal with it is, 
first of all, on a voluntary basis. Here, for example, we were 
thinking about airport security, and Chip spoke about the real 
challenges about having a safe system, but not having it so 
inconvenient that people won't travel. So if it were 
voluntarily, first and foremost, to get a card that is a smart 
card--as Chip said, give more information--and if you do that 
and if you're part of that system, then you can be processed 
through in a more efficient way. I think that might be one way 
to begin so that people become more comfortable with it.
    And I certainly acknowledge the challenges that are there. 
You don't want to take it so far that you really do invade 
people's privacy. But I've also been struck in talking with 
people at airports--and I've done a lot of that lately--that 
people are willing to sacrifice some of those issues that in 
the past maybe were considered very sacred. And they'll say, 
``You know what? I'm really concerned about my security now, 
and I would be willing to perhaps answer questions that I might 
not have been asked--might not have wanted to answer in the 
past.''
    So I think voluntarily is the first way to begin to give 
people a level of comfort and also to see that it really can 
work. And then I think a constant re-examining of the privacy 
issues, because I think they can be solved. They're not easy, 
but I think they can be solved.
    Mr. Barclay. I think there is public confusion because 
we've talked about both mandatory and voluntary systems, and an 
awful lot of people start talking about mandatory systems, 
which we do need for employees and you might consider for 
foreign nationals or people on visas or people you think are a 
higher threat of some kind.
    But the bulk of those 700 million people can be handled 
well. Look at all of us who belong to frequent flyer programs, 
where we voluntarily give away lots of information on ourselves 
in return for benefits, including convenience.
    We need to separate the notion of mandatory systems, which 
employees are going to have to put up with, from the voluntary 
pool database that doesn't even have to reside in government. 
It could reside in industry, because it's voluntary. 
Government's got to be part of it because they've got to agree 
we're collecting the right factors and criteria that allow you 
to identify someone as a low risk or a non-threat to the 
system.
    But we should give people a choice, like they have at the 
grocery store. Fewer than seven security threats come through 
this line here. If we don't know anything about you and you 
have a basketfull of security threats, you're going to go 
through the slower line and you're going to get much more 
rigorous screening. And that's particularly important in the 
early days when we have limited resources and we have to keep 
things moving. You've got to figure out how to get at those 
highest threat folks first.
    The CAPPS system is currently making that attempt. I think 
the Chicago incident of this weekend is a good story about 
CAPPS, because it caught that person, and it got them more 
vigorous screening. And that's where the items he had on him 
were discovered.
    So we've got to figure out ways to apply technology to 
reduce the threat. If you want to find a needle in a haystack, 
start with a small haystack. And we can reduce the size of the 
haystack we're searching with other technologies like facial 
recognition and matching up names and things. We can also make 
that haystack smaller by letting all of us who are willing to 
volunteer to do so. And then our only technology challenge is 
verifying you've got Barclay every time it says that's Barclay 
coming through. Technology is great for doing that.
    Mr. Doubrava. Senator, I agree. I think the challenge for 
us is, first of all, to make the process as streamlined as 
possible for those individuals that decide they want to be in 
the voluntary program. One of the events I already went through 
was the issue of the Immigration and Nationalization Service 
trying its pass. But the processes hadn't been thought through 
and made easily accessible to those individuals that wanted to 
use it. So it broke down just on the concept of use and the 
ability to easily access the program to begin with, prior to 
the application process.
    But if we state to frequent flyers out there, if you take 
the members of frequent flyer groups, if you take the traveling 
business people, if you expand that to multi-trip individuals, 
the process will begin to support itself. But we've to make 
sure that we get it right from the beginning. Because if you 
lose that kind of confidence in the process you may not and see 
enhancements as a result of being able to utilize that, and 
you're not going to get anywhere.
    It's absolutely paramount that what we do is focus our 
attention on individuals and individuals' belongings and items. 
Because the universe of what we're trying to do now, even under 
the most trying circumstances, is prone to failure, because we 
do not have personnel adequate for every program in every area. 
You really have to focus that. And so by this voluntary 
program, begin with those individuals who have a primary 
interest in the program, then expand it beyond that so that it 
works in the event that the primary people go.
    Senator Rockefeller. Well, let me follow up on that for a 
second with a question which I was bound to ask at some point 
anyway. One of the things that, it has never once in my life 
occurred to me that a West Virginian is any less important than 
somebody from New York or California. But it has often occurred 
to me that when it comes to programs of various sorts, that 
West Virginians sometimes get included and sometimes do not.
    So again, we use the word ``voluntary.'' And I can foresee 
a situation wherein, let's say, O'Hare and San Francisco and 
Denver and Louisiana, et cetera, and Miami, all of these--all 
of these, they have the money--which I want to talk about with 
you, Administrator Garvey--but they have the money to do those 
things or the money is made available to them because they are 
high-profile, high-volume airports with a lot of people going 
through them.
    In States like West Virginia--and there are many like us--
where you may have relatively few airplanes landing and 
therefore, much less, you know, bodies, obviously, that then to 
me says that voluntary is sort of like in a sense confining the 
good technology stuff that really cuts down on security risks 
to the larger airports. And says, all right, you in West 
Virginia, you are going to have to wait until there is proof 
out the American people accept it or we have the money to pay 
for it. Because some of these systems not only are tremendously 
expensive, not only to buy, but also to install. And then the 
people have to be ramped up to handle all of this.
    So you know, as I'm interested in healthcare, I always 
point out that 81 percent of the counties in America have no 
health plans. And, you know, there is an awful lot of rural 
America. Those folks who did the September 11 thing entered 
through Maine. And so this word ``voluntary,'' and yet how does 
it not conflict, if you see it that way, with the rights--the 
citizenship rights of small States and small airports?
    Ms. Garvey. Chip may have a different answer, but I was 
thinking more of voluntary on an individual basis. In other 
words, if I elect to be part of a program, then I can be part 
of it. If I'm feeling that my civil liberties are threatened or 
whatever, then I don't have to be. I wasn't thinking that it 
would be voluntary necessarily on the part of the airports. I'm 
just assuming that all the airports and airlines are going to 
want to do this. And I may be wrong on that.
    Senator Rockefeller. Well, I was thinking about the second 
as opposed to----
    Ms. Garvey. OK. And I was thinking of the individual 
saying, well, I am a frequent flyer and I do not mind at all. I 
will give you whatever information you want. I am sort of the 
same way that you are, that if I am selected and my bag is 
opened, I am pleased with that, because I do not feel 
threatened by that. I am delighted because I think somebody is 
really taking this seriously.
    Senator Rockefeller. A lot of people in rural areas do not 
fly as much.
    Ms. Garvey. Yes.
    Senator Rockefeller. You know, they do not go city to city 
or go across the world as much. They are not as comfortable 
with the concept of making themselves a voluntary commitment. 
But even that is not what I was talking about. It was a 
question of how you get that machinery, the detection 
mechanisms--as far as what you are talking about--into smaller 
airports, so that we are not treated in a second class sense, 
which to this Senator is pretty important.
    Mr. Barclay. Let me add that the beauty of biometrics for 
the individual is how inexpensive they are, both for the 
readers and the cards. As long as we do it as an open 
technology and think about it in advance, the issue of 
passenger screening is very, very inexpensive to get done. And 
a lot of us who travel a lot, will wind up paying a fee to get 
the card at one time.
    But you will always have an option in the system. The 
aviation system is almost exactly as you were pointing out in 
healthcare: 90 percent of the traffic is in the top 75 
airports. But we have 500--or 450 more airports that have the 
security procedures in place. So there are a lot of places with 
very small volume. There, the advantage of streaming quickly 
through a very small airport is probably not as great as it is 
at some of these other places like Baltimore, which has 2-hour 
lines almost every morning these days. So the incentives may 
not be quite as high. It depends on how often you travel.
    But we are going to give everyone in the system a different 
path to go if they have not bothered to get one of these 
biometric cards for themselves. I really think the economics of 
that work wonderfully for the system. And in fact, the price is 
coming down all the time. The more people we get in the system, 
the cheaper and cheaper it will get. So that part of the system 
is going to be set up well.
    I think part of your question may go to the issue of 
baggage screening, where a lot of people are in favor of having 
100 percent screening of all bags in the system with EDS 
machines. Each one is $1.2 million. There you do wind up having 
many multiple numbers of those machines at a number of airports 
when you have it set up. That is going to be a huge burden at 
smaller airports, and that's one we have to address as a 
national issue, not a local issue. So I do think there is a mix 
of the economics here that would work.
    Senator Rockefeller. Which brings us to funding. Jane, you 
were about to say something. You go ahead and say it.
    Ms. Garvey. Well, go ahead.
    Senator Rockefeller. One of the things that scares me a lot 
is that we are, as a society, going to decide, with what has 
happened after September 11 with the prospect of more of this 
happening, we are already now almost certainly in a budget 
deficit situation for next year, kind of taking us back to the 
1980s.
    And then if other things happen, let us say it is the power 
grid or let us say it is the port authority, or it is the 
bridges or whatever it might be, it is a tremendous demand on 
resources. You know, the Nation--everything that I was working 
on--not--and I do not mean this literally, but the focus of 
what I was literally working on every day in committees up 
until September 11 is now off to the side. And that does not 
mean that I am not fighting for healthcare and all kinds of 
other things. But they are not being paid a great deal of 
attention to right now, because everything is national 
security.
    When it comes to national security, whether it is CIA or 
the FBI, the shortage, the enormous numbers of people needed to 
protect ports, railroads, airports, whatever, that money 
becomes a problem. Money is a problem. We are already in a 
recession. Now we may be in quite a deep recession. It may last 
for a while.
    You are, Administrator Garvey, in an uncomfortable 
position--and I know this because everybody who works in any 
administration, Republican or Democratic, is that you have to 
toe the line, so to speak, for the Office of Management and 
Budget. They basically tell you what you can spend. You know a 
whole lot better what you need and what the American people 
need for security, than they do. But they have to make the 
numbers balance according to their objectives.
    And so I want to do the best I can to coax out of you a 
sense of what you think this business of making America's 
airports and airplanes safe is probably going to cost, and then 
some sense of what you feel may be allocated for that. And I do 
not want to get you in trouble.
    [Laughter.]
    Ms. Garvey. Well, it wouldn't be the first time. Actually, 
I think you can divide into two buckets to start with. If you 
think about the explosive detection equipment, as Chip said, it 
is about $1 million per machine. We had always been getting 
about $100 million a year over the last several years, and that 
is the pace we have been staying at.
    The manufacturers are now saying that they believe they can 
ramp up to almost 80 a month, so that is a significantly higher 
number. So that number for us would be much higher, and it 
would certainly be much higher than the $100 million that we 
have gotten in the past. So if we stay at the pace that--I am 
just, again, going by what the manufacturers say, if you say 
80--I hope your math is better than mine, you can check it--if 
it is $1 million a machine, 80 a month, figure out the math.
    Mr. Doubrava.  It is over $100 million.
    Ms. Garvey.  Definitely, yes. So it is quite a bit higher 
than we have had in the past.
    The other piece is the whole area of research and 
technology. And I mentioned the work that this Subcommittee was 
doing for us in evaluating all of those wonderful technologies 
that may be out there. And they are looking at the airport, the 
perimeter of the airport, they are looking at that. They are 
looking at the smart card idea. They are looking at things 
having to do with background checks, biometrics.
    The number that we have talked about internally just to get 
that even started is close to--million. I mean, these are very 
expensive ventures here. So if you think in terms of the EDS, 
which is a higher number; if you think in terms of research and 
technology. But again, I think one way to approach that might 
be to say, let us think of two or three airports and run a 
pilot program, run a model program and see how that works. And 
that might be a way to gain some traction, gain some 
understanding without taking it on full bore.
    And then the third area is the whole area of the Federal 
Marshal program. Again, we are still working with those 
numbers, but we have always had a very small program. We have 
ramped up considerably in that one area. We have heard a lot of 
interest, both from Congress and the American public, wanting 
to have more Federal Air Marshals available. So we are 
certainly willing to ramp up in that area, and that would be a 
significantly higher number. Again, I think based on--and that 
is probably something that we would have to talk about in a 
classified situation since we do not generally review it in 
public. So I would say the EDS technology, the research and 
development, and then finally the Federal Air Marshals are the 
biggest areas.
    Senator Rockefeller.  On an average pre-September 11 day, 
you have what, 7,000 airplanes?
    Ms. Garvey. On an average day?
    Senator Rockefeller. Yes.
    Ms. Garvey. Nationally--well actually at one time, at a 
given time, there is about 35,000 per day.
    Senator Rockefeller. Thirty-five thousand.
    Ms. Garvey. Yes, commercial aircraft. If you are talking 
about flights. Yes, flights.
    Mr. Barclay. Commercial aircraft.
    Ms. Garvey. Yes, flights. He said 7,000, and that means at 
one given time.
    Mr. Barclay. Commercial flights.
    Ms. Garvey. So during that time, that was exactly the 
number on the screen.
    Senator Rockefeller. OK. So if you would have, let us say, 
30--and the figures can be bandied around--but when it started, 
say 32 trained sky marshals, and you have got to take that--
well, not to 35,000 flights, but depending on their hours, et 
cetera----
    Ms. Garvey. Right. And also working----
    Senator Rockefeller. And that is an enormous----
    Ms. Garvey. That is a big, big number. And also working 
very closely with the FBI and saying where are the greatest 
threats, you know, and what--and that is, again, very close 
collaboration with the FBI. And, you know, I think someone 
mentioned here this morning, among panelists I know we talked 
about it, there is no one single solution. You have to look at 
it as a whole integrated package.
    The fact of the matter is the airlines have done a good job 
in reinforcing the doors. They moved very quickly after 
September 11 and have reinforced, I believe at this point, all 
of the cockpit doors for the commercial fleet. And that is 
wonderful news.
    So that is one part of the equation, one part of the 
solution. Now, Federal Air Marshals, more Federal Air Marshals, 
is another key point. Smart cards that Chip and you were 
talking about--I mean, all of those things have to be factored 
in as part of an integrated solution.
    Senator Rockefeller. Mr. Doubrava.
    Mr. Doubrava. Well, I think the Administrator focused on 
the challenge, and Senator, you know that from your experience.
    Senator Rockefeller. That was smoothly done, Administrator.
    Mr. Doubrava. But the biggest challenge, of course, is that 
we are not going to be able to use 100 percent application of 
every program, EDS, or--we are going to have to design a 
program based on threat, based on finding streamlined processes 
to get people out of the situation. I mean, clearly, we are all 
uncomfortable with the fact that elderly individuals are being 
screened robustly.
    And those are the types of things that we have to find some 
solutions for, because as we move forward, we are not going to 
be able to deploy EDS--certainly not with the financial 
liability that we all have--at 100 percent of the airports 
within 2 or 3 years. And clearly, one of the things that 
concerns us is the technological leaps that need to take place.
    We certainly would not want to spend all those resources 
initially on a first generation or first generation-and-a-half 
technology. Because clearly, we are going to get a better 
mousetrap; we always do. We have got to work through those 
processes. But we really do not want all those resources used 
in an immediate deployment with the current technology that we 
have in that particular environment. So I think that is the big 
challenge for all of us.
    Senator Rockefeller. Let me comment on that and ask a 
question of the three of you. I understand that, I agree that 
one size fits all is not particularly American. On the other 
hand, voluntary, which is particularly American, also says that 
some will be safer before others. So there is an inherit 
conflict.
    In other words, as we are discovering what are the best 
technologies--and I want to get to biometrics in a moment--but 
what are the best ways of securing people's safety as they 
board, and the perimeters of airports and the whole, you know, 
catering service, everything--as you do things on a--not 
voluntary as to personal information, but you put some things 
out there to see if they work, and you test them and you try 
them. In the meantime, there are a lot of airports that are not 
getting the advantage of any of those, because you are probably 
going to be trying those at the larger airports, because you 
almost have to. Am I right or wrong?
    Ms. Garvey. Well, when we looked at the EDS deployment, we 
laid out in the last couple of weeks where we would like to see 
it go. We tried very hard not to use that category X. But 
frankly, we have got a lot of equipment out there in category 
X.
    But we tried also to recognize that in smaller airports 
like Portland, for example. I mean, if it is clear that those 
are your points of vulnerability, then that is very exposed to 
terrorists and others. So we have tried to lay it out with 
small airports and mid-sized airports as well, both with the 
idea that we want to try to get it in as many different places 
in the system as we possibly can. So we actually tried to 
approach it that way.
    I certainly know the Congress and your Committee has always 
been interested in making sure both in the AID program and 
other programs we have had professional air services that the 
needs of the smaller airports are attended to. And I hope to be 
able to do that.
    Senator Rockefeller. It is not just a question of coming 
from the perspective of smaller airports. It's a question of 
national security.
    Ms. Garvey. That is right.
    Senator Rockefeller. That is one thing that is always said 
about terrorists: They look for the weakest link, and that is 
why they went to Portland, Maine. And that is where this whole 
process of the Twin Towers, you know, began. The World Trade 
Center. So I do worry about that.
    Now, the question I wanted to ask you was a little bit of 
what I asked you before, and that is: It is a little bit like 
in the situation that we are in, where you have international 
terrorism going on, horrendous television photographs, 
catastrophic discussions. And what happens is two things. One 
is that many of these are quite probably true. And second, it 
scares people. And I found that one of the things I do a lot of 
since September 11 is simply get on the radio talk shows and 
try to both be truthful with people about the fact that we are 
not talking about just one country here. We are talking about 
probably 60 countries that have terrorists that have angst 
toward this country for various reasons and are kind of 
planning on doing something about it, perhaps. And that that is 
a very serious problem.
    On the other hand, you want people to be calm. So you have 
to both tell the truth, and in a sense say: I think we are 
going to be OK here in West Virginia. You cannot be absolutely 
sure, but you want people to be calm. Because once the American 
people get afraid or fearful of something, they will back off 
or hunker down or they will fulfill the prophecies that the 
terrorists want. We won't travel. We won't buy. We won't go 
out. We'll sit indoors and play checkers or something.
    Then my question is: How do you take words like 
biometrics--which I think is the future, not just in aviation, 
but in a whole lot of other things. I think it's one of the 
most exciting. I can say that it is a retinal scan, which is 
the dark part of the middle of your eye, which is unlike--there 
are no two out of the 6-, 7-, 8-billion people in the world 
that would be the same. Or your thumbprint, or your facial 
thing, or the sound of your voice. Nothing--nothing--there are 
no two alike in the world. And you measure those.
    Now, on the one hand, you are asking people to do 
something, if and when we come to this--which I think we will--
which, in a sense, invades their history or their privacy; 
which perhaps puts up in their mind, well, then they now will 
know everything about me, whether I have diabetes or whether I, 
you know, got a D-minus on my French exam in the third grade or 
whatever.
    But on the other hand, it is for their protection. It is 
for their protection for their safety, it is so that they feel, 
in fact, better about living their life, more secure about 
doing what they want to do. But you can only accomplish that 
through--and then you use the word ``smart cards.'' And people 
get nervous. Well, what does a smart card do to my life? What 
does that mean?
    So this whole question of how you integrate the positive 
concept of a more secure America, less vulnerable to what we 
went through on September 11, and then on the other hand, 
again, a little bit of invasion or apparent invasion of 
privacy. Now, we did that with credit cards. When credit cards 
started out, they were very unpopular. This was many years ago. 
And as it became more secure and people developed confidence in 
it, the whole credit card industry soared. In fact, it soared 
out of sight and probably is helping to increase our debt 
hourly.
    But nevertheless, once people trusted it, then they saw 
that it was in their interest. Now, my question is: To me, 
biometrics is great. It is a great thing for security. Frankly, 
it is a great thing for West Virginia, for this university, 
which obviously I care about. But more importantly, it is a 
good thing to protect our people. And how do you work the 
psychology, as you throw out EDS and smart cards, all kinds of 
things, that you do not drive people away from what, in fact, 
is in their own interest. If you see it that way?
    Mr. Barclay. I just think that the American people are real 
smart, and I think they are seeing it for themselves. You know, 
if you are Germany or Japan, you can run your country with 
roads and railroads because those countries are geographically 
small. Germany is only twice the size of Wisconsin. We have 
this huge country. If we do not have an airport or air traffic 
control system that operates efficiently, moves people quickly, 
moves them safely and securely, our economy is not going to 
move.
    So you start with that explanation, and you get down to the 
things we need to do to provide security. You then admit that 
nothing is perfect. People break out of jail. We know lots 
about that. Human beings are clever, and we are now combating a 
force of special ops teams, suicide pilots who are trying to 
break into our system and are trying to figure out their way 
around any system we put in place.
    So you are never going to get perfect. But I think the 
American public, the folks I talk to, want to see us get 
serious about better perimeter security, better security on the 
airplanes, better screening. They are not looking for 
perfection.
    And the good news on the money side is, people are willing 
to pay more. All the surveys say that people are willing to pay 
more on the ticket. If you combine that together with the 
national security interest in getting some more money out of 
the funds that we are making available for this new world we 
are living in, we can get there.
    These are not impossible things we are talking about doing. 
The technology is there and off the shelf. We can, at the same 
time, build public confidence by saying we are doing everything 
we can possible to make this as safe as it reasonably can be. 
You should get back about running the business of this country. 
Part of your job as citizens is to accept that no system is 
perfect, but air transportation is the safest form of 
transportation in the history of mankind. We move more people 
greater distances than anything else by far. We know we have 
lost public confidence since September 11. But we are going to 
move to get that back. We have got the systems. I think that is 
a message in itself.
    Senator Rockefeller. I want to ask each of you if you have 
any other comments you want to make, but I want to get in a 
little plug before I do that.
    I don't think it is by accident that whether you are 
talking about The Washington Post, the ABC poll, or CNN poll, 
or whatever it is, that it is either 82 or 86 percent of the 
American public says that they want to see screeners in 
airports made--not Federal in the sense of bigger government, 
but made Federal in the sense they become part of the law 
enforcement process. They become accountable to the law 
enforcement process.
    And the reason that they are not, in a sense, contracted 
out as we do, is partly because as life gets more complicated 
and the world increases its danger, that building into their 
lives the databases that involve the CIA, the FBI, the 
Immigration and Naturalization Service, all to protect who are 
the good guys and who are the bad guys so that you can separate 
out the bad guys and be much more secure about them, is 
terribly important.
    And the American people are saying very directly, unless we 
see those screeners made a part of the law enforcement process 
within the Department of Justice, we are going to be slow to 
get back on airplanes. Is that not correct?
    Mr. Barclay. I agree that is what the surveys have all 
shown a preference for.
    Senator Rockefeller. So that was careful.
    [Laughter.]
    Senator Rockefeller. Chip. Jane, I will not ask you. Dick, 
I will ask you.
    Mr. Doubrava. Senator, I think that, as you know, the 
industry, our members firmly believe in the federalization 
approach. We did not push for that position on either bill, 
simply because we know that at the end of the day, you all will 
give us what we need. And the important thing is that if we 
move forward with this conference committee, we are anxious for 
you all to do your work so that we can get about doing ours. 
And we look forward to doing that.
    Senator Rockefeller. Let me just ask each of you if you 
have any other points that you would like to make.
    Ms. Garvey. I'd like, if I could, Mr. Chairman, to go back 
to your comment about the concern about the privacy. And I was 
thinking as you were speaking, we probably all need to do a 
better job of really laying that out for the American people. 
Because I think Chip is right. This is a smart group of people, 
and when it is very clear what the tradeoffs are--and people 
understand they need to trade off in life. And so I think we 
need to do a better job of that.
    And I was also thinking as we look at the research and 
development and look over the next several weeks on the most 
promising technologies, particularly those that are ready to be 
deployed, the more we can get out there in whatever manner 
works, whether it is with all the Federal dollars or a 
combination of public and private, I think the more we can get 
out there to really demonstrate to people how effective these 
technologies can be, I think that is in all of our interests. 
But also speaking more directly as you did about the tradeoff 
and the analogy with the credit card company, which I have not 
followed until today, I think is a good analogy. We probably 
need to continue with a little bit of that message.
    Senator Rockefeller. OK. I will just close this panel with 
my thanks to you and also tell you that I am really in absolute 
shock that virtually 2 months after September 11, almost 2 
months after September 11, that we have not passed an aviation 
security bill. And I think our conference starts on Wednesday. 
And you said Congress ends up doing the right thing. Actually, 
I have never heard anybody say that before.
    [Laughter.]
    Senator Rockefeller. But we had better. We had better on 
this one. Thank you all very, very much.
    Please come forward. The first is Jeff Planton, who is 
Senior Vice President of EDS, which is Electronic Data Systems 
out of Herndon, Virginia. Mr. John Selldorff, who is President 
of Automation and Control Solutions, Honeywell, and that is out 
of Minneapolis. And Mr. John Siedlarz, who is the incoming 
Chairman of the International Biometric Industry Association. 
So he is very important to us. And that is out of Moorestown, 
New Jersey. And then also Dr. Michael Yura, who is our own, who 
is a Ph.D and Director of the Forensic Identification Program 
here at West Virginia University.
    Gentleman, I look forward to your testimony. Why do we not 
start with you, Mr. Planton.

       STATEMENT OF JEFF PLANTON, SENIOR VICE PRESIDENT, 
                       FEDERAL GROUP, EDS

    Mr. Planton. Thank you, Chairman Rockefeller. I am Jeff 
Planton, Senior Vice President of Electronic Data Systems. I 
think Administrator Garvey and I probably are going to confuse 
some people because I will refer to my company as EDS, not to 
be confused with explosive detection systems.
    Senator Rockefeller. I know. We all understand that 
explosives and EDS are quite different operations.
    Mr. Planton. EDS appreciates this opportunity to present 
our views to this subcommittee on a subject of great importance 
to both EDS and our clients. Because EDS clients include the 
Federal Aviation Administration, Immigration and Naturalization 
Service, domestic and international airports, and some of the 
largest airlines in the world, aviation security is a critical 
issue to us as well.
    Many of the conveniences airline travelers once enjoyed 
have been suspended. The challenge faced by the industry going 
forward is to find a way to first stabilize and then 
continuously improve the efficiency of security processes.
    The EDS approach focuses on two different areas: the 
passenger and the airport. For passengers, EDS recommends a 
process where the government or other central entity is 
responsible for evaluating passengers. Is an individual a 
threat? While airlines are responsible for identifying and 
authenticating passengers, is an individual who they say they 
are?
    EDS recommends enhancing physical inspections of travelers 
and bags and implementing a centralized passenger evaluation 
system similar to the current CAPPS system, except that it is 
managed centrally and incorporates law enforcement watch lists.
    We feel that biometric identification systems--implemented 
by airlines, but sanctioned by the government--could be used to 
speed the check-in process for frequent travelers. Having once 
registered with a system where foolproof identities were 
provided, a traveler can authenticate his or her identity in 
seconds at a biometric checkpoint. Viable biometric 
technologies today include fingerprint scanning, hand geometry, 
facial recognition.
    While the current FAA-mandated CAPPS system is a great 
start, regulators, airlines, unions, and associations agree 
that improvements are warranted. EDS recommends a centralized 
passenger evaluation capability. With a centralized capability, 
government entities responsible for aviation security would 
have greater control over evaluation criteria, could quickly 
alter these criteria when appropriate, and instantaneously 
alert airlines to potential threats.
    Further, this system would be a logical platform for 
comparison of passengers to the law enforcement watch list. 
Armed with this information, personnel at security checkpoints 
would know who to look for and could prepare for the 
appropriate response.
    In the airport environment, key issues to be addressed 
around the airport security environment include: All the right 
personnel in the right place at the right time, all the right 
assets in the right place at the right time, all airport and 
airline employees should be issued biometrically-enabled smart 
cards following a rigorous background check. These smart cards 
could replace current identification cards, and by requiring a 
biometric match, any stolen or lost cards could be rendered 
useless immediately.
    Senator Rockefeller. Could you just explain again for our 
audience here the right definition of the word ``smart card''?
    Mr. Planton. If I can. And this is for you. This is a 
sample of a CAC card being given and issued to the U.S. Defense 
Department. On this card there is a computer chip. This card 
has 32 KB of memory on it. On these 32 KBs, we can a store a 
biometric template which, in a fingerprint--I would take my 
fingerprint. It would scan it. It would then read onto the 
chip. At that point, I have both my fingerprint template and, 
of course, the original finger. I carry that with me. If I put 
it down on a reader, it reads my fingerprint and the template 
so it shows that I am the same person.
    On this particular card, we normally have a chip. We have 
got two different bar codes that can be used for information 
and the magnetic strip also. We have three different storage 
mechanisms. There are four different storage mechanisms on this 
sample card right now. We can start with a magnetic strip to 
use today's technology, and put the biometric on the chip for 
tomorrow's technology; and as we migrate, we go away from the 
magnetic strip on to the biometric chip. And I will leave this 
for you, sir.
    Senator Rockefeller. Thank you.
    Mr. Planton. OK. As I said, also, lost or stolen cards. If 
I lose this card today, nobody can use it even if they have a 
PIN number like you do today, magnetic strips and PIN numbers. 
Without this finger, this card is useless, because I carry the 
biometric with me. Today, all I need is the magnetic strip and 
the PIN number, and I can get in anywhere. Pretty much like our 
ATM card.
    In a process similar to that used for passengers and 
employees, airport assets and vehicles entering the airport 
perimeter could also be determined as ``known'' and 
``unknown.'' Again, this permits security resources to focus on 
a smaller number of unknown entities. The system involved could 
be tagging vehicles with radio frequency ID cards, or RFIDs, 
which are recognized by airport systems.
    Technology will be critical to the total solution while 
preserving convenience, privacy, and fiscal responsibility. At 
the core of the security system will be information technology. 
This robust system will have to process data real time, will 
have to be linked to airports, airlines, and governments around 
the world. This system will require a secure, solid 
infrastructure.
    Few of the technologies that have been mentioned today are 
new. EDS is issuing millions of smart cards for the U.S. 
Department of Defense. Israel's Ben Gurion airport utilizes 
biometric systems to expedite check-ins for thousands of 
passengers every day. Credit card systems evaluate and 
authorize millions of transactions using information captured 
at point-of-sale devices around the world.
    In conclusion, secure airport terminals and tarmacs by 
identifying, verifying, and authenticating personnel, 
equipment, and shipments at critical points in the security 
process. Conduct rigorous background checks of employees, 
deploy a biometrically-enabled smart card system, employ radio 
frequency technology, enhance scanning capability.
    Enhance passenger security by using an evaluation database 
and employing biometric technologies. Implement centralized 
evaluation and law enforcement watch list databases, deploy an 
opt-in biometrically-enabled smart card system to increase 
proportion of ``known'' passengers, implement alternative 
security processes for ``unknown'' passengers.
    Thank you for this opportunity, and I will be glad to 
answer any questions you have.
    [The prepared statement of Mr. Planton follows:]
      Prepared Statement of Jeff Planton, Senior Vice President, 
                           Federal Group, EDS
    Good morning. I am Jeff Planton, Senior Vice President with the EDS 
Federal Group in Herndon, Virginia. EDS appreciates the opportunity to 
present our views to this subcommittee on a subject of great importance 
to both EDS and to our customers.
    After the worst terrorist attack in U.S. history, the Federal 
Government, airports and the airline industry are grappling with short- 
and long-term approaches to passenger safety. Because EDS clients 
include the Federal Aviation Administration (FAA), the Immigration and 
Naturalization Service (INS), domestic and international airports and 
some of the largest airlines in the world, aviation security is a 
critical issue for us as well.
    Almost immediately after September 11th, we put together a team 
representing every element of the aviation industry and critical 
technologies, including biometrics, smart cards, information security, 
and complex data management. This team has identified an approach to 
aviation security that encompasses the passenger experience, airport 
environment and the underlying infrastructure.
                           current situation
    First, we should address the current situation. Many of the 
conveniences airline travelers once enjoyed have been suspended. 
Vehicle parking near terminals is severely restricted. Only ticketed 
passengers are allowed beyond security checkpoints. In-depth checks are 
being conducted before passengers are given permission to board planes. 
Once on the plane, passengers and baggage are again checked and 
accounted for.
    All these restrictions are necessary to ensure security. At the 
same time, they add costs and constrict the flow of passengers through 
airports. While most Americans have accepted delays and longer lines 
thus far, many question how long this acceptance will last. The 
challenge faced by the industry going forward is to find ways to 
stabilize and then continuously improve the efficiency of security 
processes. In designing new security systems, a distinction must be 
drawn between security processes for handling passengers and those for 
airport and airline personnel.
                          passenger experience
    For the passenger, EDS recommends a process where the government or 
other central entity is responsible for evaluating passengers, while 
airlines are responsible for identifying and authenticating passengers.
    EDS would utilize an ``opt-in'' process to increase the number of 
``known'' travelers. Increasing the number of known travelers 
accomplishes a number of things: first, it expedites the process for 
the known traveler by providing dedicated queues and automated kiosks, 
second it improves the process for the ``unknown'' travelers because 
the known persons are removed from their queues, third it increases 
security for all because security resources can be focused on a smaller 
universe of ``unknowns''. In addition to this opt-in process, EDS 
recommends enhancing physical detection equipment for all travelers and 
bags and implementing a centralized passenger evaluation system, which 
is similar to the current CAPPS system, except that it is managed 
centrally and incorporates law enforcement watch lists.
    Of course, the goal of these security processes is to address these 
fundamental questions:
    <bullet> Are they who they say they are?
    <bullet> Are they a threat to security?
    <bullet> Are they carrying anything illegal?
                 are passengers who they say they are?
    Rigorous proof of identity will be an essential component of the 
check-in. Reviewing identity documents and manually checking security 
databases will be one of the most time-intensive stages of the new 
security process.
    Because of this, we feel that biometric identity systems--
implemented by airlines, but sanctioned by the government--could be 
used to speed the check-in process for frequent travelers. It is not 
inconceivable that voluntary biometric registration will become a 
central component of future premium flyer programs. Viable biometric 
technologies today include hand geometry, fingerprint scanning and 
facial recognition.
    Having once registered with a system where full proof of identity 
was provided, a traveler can authenticate his or her identity in 
seconds at a biometric checkpoint. EDS has such a system in place today 
at Ben Gurion International Airport in Israel. It allows registered 
Israeli citizens to authenticate their identities with a magnetic card 
and a hand scan, shaving up to 2 hours off the wait at passport 
control. Currently, 15 percent of the passengers at Ben Gurion utilize 
this voluntary authentication system. Plus, the system can be 
implemented rather quickly--the initial phase of the Ben Gurion system 
was implemented in just 3 months.
             are specific individuals a threat to security?
    While the current FAA-mandated CAPPS system is a great start, 
regulators, airlines, unions and associations agree that improvements 
are warranted. EDS recommends a centralized passenger evaluation 
capability, likely implemented and managed by the government. With a 
centralized capability, government entities responsible for aviation 
security would have greater control over evaluation criteria, could 
quickly alter these criteria when appropriate and could instantaneously 
alert all airlines of potential threats. Further, this system would be 
a logical platform for the comparison of passengers to law enforcement 
watch lists.
    This kind of system is not new. In fact, EDS is currently operating 
a pre-screening system similar to this for a number of U.S. airlines--
processing approximately 70 million passengers annually. Given that a 
number of airlines already utilize this system and the FAA has rights 
to much of the intellectual property already, EDS feels that this 
version of CAPPS would be the logical foundation of a national 
passenger evaluation capability. For similar reasons, we also feel that 
such a system could be up and running quickly in perhaps 6 to 9 months 
depending on final requirements and funding arrangements.
    Additional capabilities are also recommended. This centralized 
system should be integrated with airport security systems. Lists of 
high-risk passengers could be downloaded to airport systems; minimally 
each day--providing security personnel with a much-needed advantage. 
Armed with this information, personnel at security checkpoints would 
know for whom to look and could prepare the appropriate response.
                  are they carrying anything illegal?
    Having evaluated passengers at the time of booking and then 
authenticated their identity at check-in, the next task is to ensure 
that they are not carrying anything illegal. Much of this task will 
fall to the security personnel and detection equipment at security 
checkpoints. Additional security would come from screening of all 
checked baggage and the ability to track checked baggage throughout the 
process.
    Bar code technology and radio frequency identification devices 
(RFIDs, like toll tags on highways) permit the tracking of baggage 
through the airport. Using these devices personnel would know whether a 
specific bag arrived at a plane when it should have. If it did not, 
then they could determine where the bag was removed from the process 
and why. This form of electronic tracking would also facilitate the 
positive matching of baggage to those actually boarding an aircraft. If 
a person's bag was loaded, but the passenger did not board, then this 
technology would allow personnel to quickly locate and remove the 
unattended checked baggage.
                          airport environment
    Key issues to be addressed around the airport security environment 
include:
    <bullet> Are the right personnel in the right places at the right 
time?
    <bullet> Are the right assets in the right place at the right time?
      are the right people in the right places at the right time?
    Similar biometric systems that are used for known passengers could 
be used for airport and airlines employees as well. Just as known 
passengers ``enroll'' in the system, all airport and airline employees 
would be issued biometrically-enabled smart cards following a rigorous 
background check. These smart cards could replace current 
identification cards, which can be stolen and/or easily forged. 
Requiring a biometric match would render any stolen or lost card 
useless and smart cards are all but impossible to forge.
    Using smart card technology, specific personnel could be permitted 
access to specific locations at specific times. For example, an aircrew 
might only be allowed access to a particular gate for a specific 
flight. This is far different from universal access processes currently 
used at most airports, which allow anyone with the correct code access 
to secure terminal areas or tarmacs at any time. RFID (or radio 
frequency identification) technologies could also be imbedded into 
smart cards and notify authorities if an unauthorized individual is 
attempting to enter a restricted area.
       are the right assets in the right place at the right time?
    In a process similar to that used for passengers and employees, 
airport assets and vehicles entering the airport perimeter could be 
determined as ``known'' or ``unknown''. Again, this permits security 
resources to focus on a smaller number of unknown entities.
    EDS recommends the deployment of systems such as those currently 
used on the U.S. borders with Canada and Mexico. These systems involve 
tagging vehicles with RFID devices similar to toll tags, which are 
recognized by airport systems. It is even possible to tie a specific 
employee to a specific vehicle, providing greater assurance that a 
given vehicle is where it is supposed to be.
    To improve security around items such as catering trucks, it would 
be possible to utilize certain supply chain technologies that track 
inventory throughout a production process. Particular shipments are 
inspected and sealed at their point of origin (perhaps a catering 
kitchen). Tracking technologies could verify that a shipment remained 
sealed throughout the transport process and would prompt security 
personnel to respond in the event that a seal was broken or even if a 
shipment strayed from an assigned path.
        at the core of security systems: information technology
    A great deal of attention and energy has been devoted to physical 
security processes. This is necessary and very important, and will 
continue to be a key component of the security screening process. 
However, technology will be critical to a total solution that enhances 
security while preserving convenience, privacy and fiscal 
responsibility. Such an information system will have to process data 
real-time and will have to be linked to airports, airlines and 
governments around the world. Robust systems permitting central data 
management with greatly distributed data collection are required. This 
system will require a solid infrastructure and no possibility of 
downtime. And without question, access to it and to the information it 
contains must be secure.
    While the integrated system described above is not currently in 
place, none of the individual technologies described are new. EDS is 
issuing millions of biometrically enabled smart cards for the U.S. 
Department of Defense. EDS pre-screens millions of passengers using its 
client-server system every year. Israel's Ben Gurion Airport utilizes a 
biometric system to expedite check-in for thousands of passengers every 
day. Credit card systems evaluate and authorize millions of 
transactions using information captured at point of sale devices around 
the world. And, supply chain systems track the production of millions 
of products in the U.S. and abroad.
    Beyond the individual solutions, the scale and scope of this system 
would not be unprecedented, either. While integration of such disparate 
databases and complex technologies on a global scale might be new to 
airports and the airline industry, global service providers like EDS 
already have extensive experience creating and running comparable 
systems in other industries.
                               conclusion
    The challenge is to stabilize and then improve the efficiency of 
the aviation security processes. It is important to address both 
security processes for handling passengers and those for airport and 
airline personnel.
    Secure airport terminals and tarmacs by identifying, verifying and 
authenticating personnel, equipment and shipments at critical points in 
the security process.
    <bullet> Conduct rigorous background checks of employees.
    <bullet> Deploy a biometrically enabled smart card system.
    <bullet> Employ radio frequency (RF) technology.
    <bullet> Install scanning equipment.
    Enhance passenger security by implementing an evaluation database, 
emphasizing biometric technologies.
    <bullet> Implement centralized evaluation and law enforcement watch 
list database.
    <bullet> Deploy an ``opt-in'' biometrically enabled smart card 
system to increase proportion of ``known'' passengers.
    <bullet> Implement alternative processes for ``unknown'' 
passengers.
    Thank you for this opportunity to present this testimony. I am 
happy to answer any questions you might have.

    Senator Rockefeller. Thank you very much.
    Mr. Selldorff.

            STATEMENT OF JOHN SELLDORFF, PRESIDENT, 
           HONEYWELL AUTOMATION AND CONTROL SOLUTIONS

    Mr. Selldorff. Thank you, Mr. Chairman, for the opportunity 
to testify before you today on the important issue of airport 
security technologies. I would like to thank you also for your 
past leadership on critical aviation issues, and we look 
forward to working with you in the future as we address the 
problems that lie ahead.
    Honeywell is a diversified global technology and 
manufacturing leader. We have an unusually broad perspective on 
airport and aviation safety. Among our core businesses, we are 
a leading international provider of aircraft safety 
communications, and guidance control systems and products; 
including systems to alert flight crew and ground authorities 
of an airborne emergency, collision avoidance, and improved 
flight data and cockpit voice recorders. We also manufacture 
Spectra, the lightest weight ballistic material made, which can 
be used to harden and make bulletproof cockpit doors.
    On the ground, we are a global expert in control 
technologies for buildings, homes, and industry. Honeywell has 
designed and installed control systems providing security, life 
safety, energy, and building control management in more than 
200 airports, from San Francisco and Miami to Moscow and Hong 
Kong.
    Today I will talk briefly about the current U.S. approach 
to airport security and threat-detection systems; I will 
outline safety-enhancement opportunities incorporating existing 
technologies; and I will discuss what needs to change to ensure 
that airport workers, passengers, and airline crews can move 
through our Nation's airports with a minimum of risk.
    Every modern airport relies on multiple control systems, 
from video surveillance and access control systems to equipment 
that manages lighting, fire detection and protection, and 
heating, ventilation, and air conditioning. In most U.S. 
airports, these systems run independently of each other and are 
managed by different departments. The purchasing decisions for 
these stand-alone systems also tend to be made separately based 
on two primary factors: basic functionality and lowest initial 
price.
    The result of the current approach is that the typical 
domestic airport's key operational systems don't communicate 
with each other. There is little or no integration among the 
various security and safety-related systems in an airport, let 
alone with the building's critical operational systems.
    These types of airport systems have been adequate in the 
past. But in this new environment, we need solutions that 
provide multiple layers of protection, incorporating threat-
detection and response capabilities from the time someone 
approaches the facility and passes through security, to when 
they approach the aircraft and other secured areas. Airports 
need early warning tools to avert problems at the earliest 
possible opportunity, or lacking that, to respond quickly to 
contain damage and risk.
    The answer does not lie in individual technologies; it 
resides in the integration of current and emerging systems. It 
is possible today to tie together virtually every aspect of an 
airport's operation into a single, powerful management 
solution, in effect, casting a tightly woven, protective net 
over the airport and its occupants. Such systems not only 
integrate video surveillance, access control, fire, emergency 
evacuation, and other types of safety-related systems, they 
also link critical operational systems that control such 
functions as lighting, heating, ventilation, and air 
conditioning. The systems can be programmed to automatically 
take certain actions in the event of an incident, across a 
variety of functions.
    Say that an unauthorized person enters an area containing 
critical building equipment. The access control system sounds 
an alarm on the staff's workstation and indicates where the 
breach has occurred. On the same screen, the video surveillance 
system displays live footage of the area so security staff can 
determine an appropriate response. At the same time, other 
types of building management systems would be alerted and 
automatically respond based on preprogrammed instructions. 
Depending on the situation, perhaps the ventilation units would 
shut down and doors in the area automatically lock.
    Integrated solutions also can provide data from human 
resources such as employee photo and work schedules as well as 
other databases for known criminals. The result is to turn raw 
information into intelligence that the facility operators and 
its systems can act upon. For instance, based on employees' 
work schedules, the access control system can limit entry to 
only those employees who are scheduled to work or travel on 
that plane.
    As biometric technologies such as facial recognition become 
more prevalent, they will be able to communicate with airport 
personnel databases to prevent the use of stolen access cards. 
In an integrated system, the access control system will be able 
to compare the card code to the face or fingerprint stored in 
the employee's file and deny access to anyone other than that 
particular worker.
    An integrated system that included access to FBI and other 
law enforcement databases would provide an additional and much-
needed security enhancement. Armed with the images and 
backgrounds of known terrorists, an airport's security system 
could proactively identify potential threats and facilitate a 
response before any damage is inflicted.
    Integrated systems are not just a possibility; they are a 
reality at a growing number of airports outside the United 
States. Currently, 70 percent of the airport systems that 
Honeywell has installed are outside the United States, in 
facilities that seek to capitalize on the benefits that 
integration provides.
    There are several reasons why international airports are 
adopting integration technologies. One, of course, is more 
experience with terrorists. In fact, the European Union 
encourages the use of integrated security systems in its member 
country airports. Elsewhere, the Sydney, Australia, Kingsford 
Smith Airport installed a 100-camera digital video surveillance 
system that integrates to a security management system in 
preparation for the 2000 Olympic Games, while also setting the 
groundwork for future passenger growth.
    Airports outside the United States are utilizing integrated 
systems for broader, long-term business reasons. Such systems 
increase staff productivity and effectiveness. Through their 
ease of use and centralized, comprehensive control 
capabilities, they reduce energy costs by permitting automatic, 
timed control of equipment. At the Munich Airport, for example, 
a comprehensive control solution allows operators to activate 
runway lights, heating, ventilation, and air conditioning in 
specific gate areas, and even baggage carousels, based on 
flight schedules.
    Airports outside the United States generally view their 
building systems as a long-term investment. They tend to select 
systems based not on initial price, but on the systems' ability 
to lower the facility's life-cycle costs. And they look beyond 
current functionality, seeking flexible systems that will 
accommodate new technologies and support business changes.
    The current situation presents both a short-term challenge 
and a long-term opportunity. It is critical that we place the 
best technologies and procedures throughout our Nation's 
airports. Integrated solutions should be deployed wherever 
possible.
    The industry will continue to come forward with new 
technologies and ideas to enhance airport security and avert 
emergencies. But the Federal Government must play a leadership 
role in creating and implementing this security plan. Standards 
must be developed and mandated that provide a security 
framework that is adaptive based on a given airport's usage.
    The Federal Government must lead the effort to create these 
national standards so that safety and risk-mitigation 
capabilities are consistent from airport to airport. Equally 
important, it needs to implement policies that will streamline 
the certification, regulatory, and procurement processes so 
solutions can be fielded quickly.
    The FAA has projected that in the next 20 years, domestic 
passenger enplanements will double, and commercial aircraft 
operations will increase by 47 percent. Clearly, the time to 
put more stringent airport security measures in place is now. 
We must take steps to rebuild the confidence of the American 
flying public and provide them with airports that are truly 
safe and secure.
    Thank you for the opportunity to appear before this 
Subcommittee.
    [The prepared statement of Mr. Selldorff follows:]
           Prepared Statement of John Selldorff, President, 
               Honeywell Automation and Control Solutions
    Thank you, Mr. Chairman for the opportunity to testify before you 
today on the important issue of airport security technologies. I would 
like to thank you also for your past leadership on critical aviation 
issues that affect every citizen in this country and we look forward to 
working with you and other members of the Committee as we address the 
problems that lay ahead.
    By way of background, Honeywell is a diversified global technology 
and manufacturing leader. We have an unusually broad perspective on 
airport and aviation safety. Among our core businesses, we are a 
leading international provider of aircraft safety, communications and 
guidance control systems and products--including systems to alert 
flight crew and ground authorities of an airborne emergency, collision 
avoidance and improved flight data and cockpit voice recorders. We also 
manufacture Spectra, the lightest weight ballistic material made, which 
can be used to harden and make bulletproof cockpit doors.
    On the ground, we're a global expert in control technologies for 
buildings, homes and industry. Honeywell has designed and installed 
control systems providing security, life safety, energy and building 
control management in more than 200 airports, from San Francisco and 
Miami to Moscow and Hong Kong.
    Today, I will talk briefly about the current U.S. approach to 
airport security and threat detection systems. I will outline safety-
enhancement opportunities incorporating existing technologies. And I'll 
discuss what needs to change to ensure that airport workers, passengers 
and airline crews can move through our nation's airports with a minimum 
of risk.
                     airport security systems today
    The events that began unfolding Sept. 11 have changed the rules. 
Across every aspect of American society, the policies, procedures and 
systems that once seemed adequate now are called into question--and 
often found in need of change. That is true of how U.S. airport 
security systems are planned and implemented as well.
    Every modern airport relies on multiple control systems, from video 
surveillance and access control systems to equipment that manages 
lighting, fire detection and protection and heating, ventilation and 
air conditioning. In most U.S. airports, these systems run 
independently of each other and are managed by different departments. 
The purchasing decision for these stand-alone systems also tend to be 
made separately, based on two primary factors: functionality (e.g., how 
well does this system provide video surveillance) and lowest initial 
price.
    The result of the current approach is that the typical domestic 
airport's key operational systems don't communicate with each other. 
There is little or no integration among the various security and 
safety-related systems in an airport, let alone with the building's 
critical operational systems. If an incident occurs, airport management 
cannot obtain a timely, single view of what is happening. Instead, they 
need to go into multiple systems. In other words, once the access 
control system indicates a security breach, the operator must enter a 
separate closed-circuit-TV surveillance system to view the intruder and 
what he or she is doing. Responding to the incident often requires 
multiple steps as well.
    These types of airport systems have been adequate in the past. But 
in this new environment, we need solutions that provide multiple layers 
of protection, incorporating threat-detection and response capabilities 
from the time someone approaches the facility and passes through 
security, to when they approach the aircraft and other secured areas. 
Airports need early warning tools to avert problems at the earliest 
possible opportunity--or, lacking that, to respond quickly to contain 
damage and risk.
       integrated systems that help prevent and contain incidents
    Much attention has been given to such security technologies as 
biometrics and facial recognition systems. Yet these need to be part of 
a comprehensive solution needed to keep our airports safe.
    The answer doesn't lie in individual technologies; it resides in 
the integration of current and emerging systems. It is possible today 
to tie together virtually every aspect of an airport's operation into a 
single, powerful management solution, in effect casting a tightly 
woven, protective net over the airport and its occupants. Such systems 
not only integrate video surveillance, access control, fire, emergency 
evacuation and other types of safety-related systems; they also link 
critical operational systems that control such functions as lighting, 
heating, ventilation and air conditioning.
    In this integrated management solution, the airport's systems 
communicate and work together. The systems can be programmed to 
automatically take certain actions in the event of an incident, across 
a variety of functions. The solution also provides management with a 
single centralized view of the building's operations, enhancing 
intelligence during an incident while strengthening overall facility 
management day-to-day.
    Integrating an airport's systems provides a higher and more 
effective level of operational control, less opportunity for human 
error, greater responsiveness in the event of a problem and less public 
exposure to risks. Let me give you an example of what I mean.
    Say that an unauthorized person enters an area containing critical 
building equipment. The access control system sounds an alarm on the 
staff's workstation, and indicates where the breach has occurred. On 
the same screen, the video surveillance system displays live footage of 
the area, so security staff can determine an appropriate response. At 
the same time, other types of building management systems would be 
alerted and automatically respond, based on pre-programmed 
instructions. Depending on the situation, perhaps the ventilation unit 
shuts down, and doors in the area automatically lock.
            using database information for better decisions
    Integrated solutions also can incorporate data from human resources 
such as an employee's photo and work schedule as well as other 
databases for known criminals. The result is to turn raw information 
into intelligence that the facility's operators and its systems can act 
upon. For instance, based on employees' work schedules, the access 
control systems can limit entry to only those employees who are 
scheduled to work or travel on that plane.
    As biometric technologies such as facial recognition become more 
prevalent, they will be able to communicate with airport personnel 
databases to prevent the use of a stolen access card. In an integrated 
system, the access control system will be able to compare the card code 
with the face or fingerprint stored in the employee's file, and deny 
access to anyone other than that particular worker.
    An integrated system that included access to FBI and other law 
enforcement databases would provide an additional and much-needed 
security enhancement. Armed with the images and backgrounds of known 
terrorists, an airport's security system could proactively identify 
potential threats and facilitate a response before any damage is 
inflicted.
     integrated systems currently in use outside the united states
    Integrated systems aren't just a possibility. They are a reality at 
a growing number of airports outside the United States. Currently 70 
percent of the airport systems that Honeywell has installed are outside 
the United States, in facilities that seek to capitalize on the 
benefits that integration provides.
    There are several reasons why international airports are adopting 
integration technologies. One, of course, is more experience with 
terrorists. In fact, the European Union encourages the use of 
integrated security systems in its member countries' airports. 
Elsewhere, the Sydney, Australia, Kingsford Smith Airport installed a 
100-camera digital video surveillance system that integrates to a 
security management system in preparation for the 2000 Olympic Games, 
while also setting the groundwork for future passenger growth.
    In addition, airports outside the United States are utilizing 
integrated systems for broader, long-term business reasons. Such 
systems increase staff productivity and effectiveness, through their 
ease of use and centralized, comprehensive control capabilities. They 
reduce energy costs by permitting automatic, timed control of 
equipment. At the Munich Airport, for example, a comprehensive control 
solution allows operators to activate runway lights, heating, 
ventilation and air conditioning in specific gate areas and even 
baggage carousels, based on flight schedules.
    And finally, such systems help deliver operational efficiencies. 
With key systems and databases linked together, airport management gets 
a full, real-time view of all operations. Operators have the 
information they need to improve the building's performance and the 
power to make facility-wide adjustments based on changing needs or 
single events.
    These are the types of long-term benefits that airports can and 
should seek to capture. Airports outside the United States generally 
view their building systems as a long-term investment. They tend to 
select systems based not on initial price, but on the systems' ability 
to lower the facility's lifecycle costs. And they look beyond current 
functionality, seeking flexible systems that will accommodate new 
technologies and support business changes.
                a flight plan for u.s. airport security
    The current situation presents both a short-term challenge and a 
long-term opportunity. We need to establish a flight plan, if you will, 
to improve the safety and effectiveness of U.S. airports. And we need 
to do it now.
    Honeywell agrees with the recommendations outlined in the U.S. 
Department of Transportation's Airport Security Challenge Report. Those 
recommendations must be implemented as soon as practicable. In 
particular, we strongly support the establishment of an Aviation 
Security Technology Consortium of public and private sector individuals 
to identify, sponsor and test new security-related technologies at our 
Nation's airports. Honeywell would be honored to participate in such an 
association.
    It is critical that we place the best technologies and procedures 
throughout our nation's airports. Integrated solutions should be 
deployed whenever possible. For maximum return on investment, they 
should improve operations as well as safety. They should be built on 
non-proprietary languages and certifications to avoid dependence on 
specific technologies or manufacturers. And they must be designed to be 
future-proof.
    The industry will continue to come forward with new technologies 
and ideas to enhance airport security and avert emergencies. But the 
Federal Government must play a leadership role in creating and 
implementing this airport security flight plan. Standards must be 
developed and mandated that provide a security framework that is 
adaptive based on a given airport's usage (international versus 
domestic versus private). Standards that take into account the 
technologies, the systems and appropriate databases needed to create a 
comprehensive, cohesive, holistic airport security management plan.
    The Federal Government must lead the effort to create these 
national standards, so that safety and risk-mitigation capabilities are 
consistent from airport to airport. Equally important, it needs to 
implement policies that will streamline the certification, regulatory 
and procurement processes, so solutions can be fielded quickly.
    The FAA has projected that in the next 20 years, domestic passenger 
enplanements will double, and commercial aircraft operations will 
increase by 47 percent. Clearly, the time to put more stringent airport 
security measures in place is now. We must take steps to rebuild the 
confidence of the American flying public, and provide them with 
airports that are truly safe and secure.
    Thank you for the opportunity to appear before this subcommittee.

    Senator Rockefeller. Thank you very much.
    I have just got to interject one thought here. Initially, 
you said that some international airports are using it, that 
ought to, should it not, be of some comfort to the American 
people? In other words, those that have dealt with these kinds 
of problems before on a relatively routine basis, as opposed to 
we in this country who have not, have opted toward much tougher 
technological and, ultimately, much safer solutions. That 
should be some comfort, I would think, to the American people.
    Yes, sir.

         STATEMENT OF JOHN E. SIEDLARZ, VICE CHAIRMAN 
  OF THE BOARD, INTERNATIONAL BIOMETRIC INDUSTRIAL ASSOCIATION

    Mr. Siedlarz. Mr. Chairman, I thank you for the privilege 
of appearing before the Subcommittee today for the biometrics 
industry. I sat with rising excitement during the initial 
committee discussion because of both the increasing recognition 
for the role of biometrics and the acceptance of its 
capabilities and what it might provide. And of course, your 
known support for the industry and the work that is going on 
here in West Virginia, we appreciate that very much.
    Some 3 years ago, four small businesses engaged in 
biometrics with different kinds of technologies put aside their 
aggressive competitiveness for a short period to form the 
Association. The Association has grown today to over 20 
companies, and it is growing even more as we speak. And one of 
the reasons we did that at the time is because even though the 
biometric industry has been emerging for some 25 years, dating 
back to the late 1960s and early 1970s, the truth of the matter 
is that we recognize that the need for public advocacy and 
public education is still true today, for many of the points 
that you raised about it in your discussions of the early 
industry still apply.
    It's good to note that of the four companies that were 
represented at the time, brought together with the foresight of 
Mr. Bill Wilson from California, who headed then-RSI, 
Incorporated, who is with us today and who deals with hand 
recognition technology, joined me and my company with Iris 
Recognition Technology, then IriScan, and now Iridian 
Technology, and Identix, with the fingerprint, represented 
today by Mr. David Shipman. And also Visionics, facial 
recognition, represented today by Frances Zelazny.
    So those four companies, as I said, put aside the 
differences that we saw we had, to emphasize the fact of the 
similarities that we had to bring to the public and the Nation 
what we thought was important, and has become even more 
important since 9/11.
    I have separately submitted a written statement for the 
record, a letter which describes the IBIA position regarding 
the role of biometrics in a comprehensive aviation security 
program. It offers specific recommendations for consideration 
by the Subcommittee and the Congress in the ongoing work to 
improve the security of our air transportation system. With 
your permission, I would like to offer some brief comments that 
amplify our scope and hopefully provide additional perspective 
on the use of biometrics in commercial aviation operations 
under the threat of international terrorism.
    Terrorism, and indeed all criminal activity, thrives in an 
environment of ambiguity and false identity. Rights that we 
have come to expect as Americans, such as privacy and freedom 
to travel, are exploited and corrupted by those who would have 
us live in fear, with the intent to cripple our society and our 
economy. Without surrendering those rights--and I would like to 
return to that issue--we need to fight back effectively and 
deny them the opportunity for such exploitation.
    In my first 20-year career as an Air Force officer, I was 
deeply involved in the design and implementation of security 
programs for military aviation. We believed then that a world 
of difference separated our needs from that of commercial 
aviation. I believe that that world of difference was 
dramatically narrowed on September 11.
    There are fundamental similarities in the goals of aviation 
security in each sector, as well as unique characteristics. We 
can learn from those similarities, which include the following: 
One, protect the air crews, aircraft, and servicing personnel 
by effectively denying access to the tarmac to those who are 
not authorized to be there. Reliable real time identification 
is required to achieve that goal.
    Two, protect the terminal and the facilities that service 
and control the air operations, and the public that needs 
access by the effective surveillance in key areas and screening 
and controlled access in critical areas. Identification and 
authentication, properly integrated, is required to achieve 
that goal.
    Three, protect the traveler by positive controls of baggage 
and boarding process, and positive identification of those who 
use the transportation system, especially those who cross our 
borders. Biometric technology in its varied forms is capable 
today, as it was not many years ago when I dealt with it first, 
of providing both a surveillance and positive identification 
component of these necessary security program elements. It is 
necessary to match the technology to the application, because 
no single technology can do it all. I return to that. One size 
does not fit all.
    To those who say that the technology is not free of error 
in all applications, I would say, if not this, what? All 
current nonbiometric designs and methods to solve the 
identification need do not work, incapable of any acceptable or 
realistic percentage of success. And they are measured against 
technology that now can demonstrate performance up to the 99 
percent level in proper integrations.
    To those who say we cannot identify a terrorist until he is 
enrolled in a biometric database, I say, if not now, when?
    Some biometrics can make effective use of existing 
databases, and all of those who enter the United States should 
begin to enroll right now. To those who say it will take time 
to build a database for full effectiveness in antiterror 
operations, I say that the database controlling access to the 
tarmac, for the protection of air crews, aircraft, servicing 
personnel, facilities and the public can be accomplished very 
quickly.
    Finally, to those who say that privacy, civil liberties, 
and convenience must all be sacrificed to achieve these goals, 
I say that you are wrong, and that your good intentions should 
be directed to working with the industry to minimize the impact 
and achieve reasonable results. If we cannot use effective 
technology that is capable of protecting our identity while 
removing the cloak of the imposter, then we will be held 
hostage as a society crippled by fear, intimidation, and 
ignorance. That is a society in which privacy and civil liberty 
and freedom of movement become meaningless concepts.
    Privacy and biometrics, I would add, Mr. Chairman, are not 
incompatible. I have carried a military identification card for 
some 43 years. Aside from being proud of that, adding on a 
biometric template, whether that be iris or fingerprint or 
facial or whatever that happens to be, simply makes that card 
secure. It does not really add a single degree of personal data 
to the card. But it does say for once--and for the first time, 
I should say, in 42 years--that is my card.
    And the same way for your card that you showed earlier to 
the panel with regards to a guarantee that that card belongs to 
you and not to anyone else. That is fundamentally the 
difference. It is possible to separate personal identities from 
biometric information so cleanly, so effectively that a 
reasonable compromise certainly can be worked to make sure that 
those rights and those privileges are still preserved.
    Senator Rockefeller. Can I just interject something here? A 
lot of people when they hear about cards and the availability 
of data through cards, automatically think, well, you know, 
whatever health problems or my D-minus in the third grade in 
French or whatever are going to become public knowledge. In 
other words, the whole concept of telemarketing as opposed to 
what it is that you are doing this for. Could you help us 
understand that telemarketing is not what we are talking about 
here?
    Mr. Siedlarz. As a matter of fact, Mr. Chairman, I think 
sometimes the aggravation we see over this privacy issue is 
that we see a little more concentration on protecting our 
privacy against telemarketing than we would in some of the 
areas that we are concerned with here. But in any event, I hope 
I can.
    Let us think of it this way: We like to say sometimes in 
the industry that biometrics can make a dumb card smart and a 
smart card good. I think it is important to understand that if 
you have a smart card without biometrics, you have a card that 
can contain data. That data could be medical information. It 
could be political information. It could be financial 
information. It could be almost any other information.
    If someone gets access to that card and has the methodology 
to extract that data, because there is no protection from them 
to do so, then yes, that may be a serious threat to the privacy 
of the information that is stored on that card.
    If the card is nothing more, like most credit cards, than 
the vehicle to get to a central database which has the 
extensive information, then that is something of another 
matter. Those might be referred to as dumb cards, but they 
still, in fact, make the translation from how you are 
effectively using it in a transaction to where that information 
is really stored. But that is essentially the difference 
between the two cards, if I properly understood your question.
    Senator Rockefeller. And in any event, we are facing 
precisely the same set of problems as we deal with the 
Internet.
    Mr. Siedlarz. Absolutely. Absolutely. And biometrics, as 
you know, have a major role there in terms of protection of 
identity and the security of transactions; knowing who, in 
fact, is initiating the transaction and who is receiving it, 
with appropriate encryption and other protective devices in 
between to protect the data.
    Senator Rockefeller. Thank you.
    Mr. Siedlarz. Yes, sir. Well, that concludes my testimony.
    [The prepared statement of Mr. Siedlarz follows:]
         Prepared Statement of John E. Siedlarz, Vice Chairman 
       of the Board, International Biometric Industry Association
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting the biometric industry to offer its views at this important 
proceeding. My name is John E. Siedlarz. I am the founder of IriScan, 
now Iridian Technologies. I am also Vice Chairman of the Board of 
Directors of the International Biometric Industry Association (IBIA), 
and I represent IBIA here today. IBIA is based in Washington, DC and 
advocates the collective interests of leading manufacturers and 
developers of biometric technology.
    My company was one of the four charter members of IBIA. All three 
other charter members are represented here today. They include 
Visionics, whose Chief Executive is Joseph Atick, represented today by 
Frances Zelazny; Identix, represented today by David Chapman; and 
Recognition Systems, represented today by Martin Huddert, Chief 
Executive Officer, and Bill Wilson, Managing Director. Bill is also 
Chairman of the Board of IBIA.
                          threats to aviation
    Terrorism, and indeed all criminal activity, thrives in an 
atmosphere of anonymity and false identity. Freedom to travel, a 
treasured benefit in our democratic society, is exploited and corrupted 
by those who would threaten all movement, all travel, creating the 
image of imminent danger in the attempt to impose fear on our 
population and cripple the economy. We need to deny them that 
opportunity without sacrificing our rights of travel in a free society.
    Piecemeal, hurried, and reactive measures for aviation security may 
provide a temporary solution to a specific problem, but a well designed 
and comprehensive security program is necessary to deter and detect 
threats over the long-term fight against international terrorism. No 
program will be complete without an effective component for 
identification of all participants in the travel process, as well as an 
efficient tool to deny access and travel to those who threaten that 
process. Biometric technology can be that effective component.
                          biometric technology
    Biometrics are defined as the automatic identification or identity 
verification of an individual based on physiological or behavioral 
characteristics. The authentication of identity is accomplished by 
using computer technology in a non-invasive way to match patterns of 
live individuals in real time against enrolled records. Examples of the 
patterns used for biometric identification include those made from the 
image of a fingerprint, the geometry of the hand, and unique patterns 
in a person's iris, voice, signature, or face. It is important to note 
that most biometric applications do not store the actual image of the 
feature being measured. Instead, biometrics secure systems and protect 
an individual's identity by converting the measurement into an 
encrypted file. This biometric record cannot be reverse engineered to 
determine a person's age, sex, race or other sensitive information. 
Likewise, it cannot be used to steal someone's identity.
    With these characteristics, biometrics are the only technologies 
that can offer an effective response to the need for authentication as 
a primary component of increased security without sacrificing 
convenience. The U.S. Government has been an early adopter of 
biometrics, first using the devices to control access to highly 
sensitive facilities such as nuclear power plants and weapons 
facilities. Now, use of biometrics is expanding to protect networks 
against intrusion by hackers, to secure records from identity theft, to 
ensure benefits are disbursed to the lawful recipient, and to protect 
borders.
    In parallel with its efforts to work with the Government to develop 
and refine self-contained applications for biometric technology, the 
industry has worked diligently to establish the standards needed for 
true interoperability. In cooperation with the National Institute of 
Standards and Technology, IBIA has created a registry that enables any 
biometric device to be recognized on a network. The industry and 
government also have worked together to publish rules on how biometrics 
are to be integrated into computer operating systems. This is an 
exceptionally important advancement for several reasons:
    <bullet> It allows multiple biometrics to be accommodated;
    <bullet> It allows the quick adoption of new biometric technologies 
as they are developed in the future;
    <bullet> It permits the rapid exchange of information for record 
checks; and
    <bullet> It enables users to voluntarily share biometric 
information that has been acquired by other sources, such as employers, 
airlines, and government agencies.
    On a broader scale, the industry and its research and academic 
partners, including West Virginia University, are working on new 
initiatives to marshal the resources of the biometric community for the 
common good. Such initiatives would focus on the critical need for an 
identification component in the security programs that protect the 
national infrastructure, including the aviation industry.
                    biometrics and aviation security
    In the air transport environment biometric solutions are used to 
handle such diverse tasks as automating immigration clearance processes 
for arriving international passengers, and preventing unauthorized 
people from gaining access to sensitive areas of the airport. This 
real-world experience has proven that biometric technologies perform 
reliably, and that they can measurably improve the security of U.S. 
airports, help make air travel as safe as possible, and deter criminals 
from entering the U.S. via the commercial air transport system. There 
are three specific applications of biometric technology that can be 
used to achieve a new level of security. They are:
    <bullet> Controlling employee and air crew access;
    <bullet> Identifying suspected terrorists and other people whose 
presence signals a danger to the airport premises and the traveling 
public; and
    <bullet> Simplifying the often cumbersome process of identifying 
legitimate travelers.
                           controlling access
    Federal Aviation Regulations require airports to adopt physical 
access controls that prevent unauthorized parties from getting through 
airside security or gaining access to aircraft ramp areas, baggage 
rooms, and other sensitive airport facilities. Some controls are 
staffed, such as entry gates and terminal security checkpoints. 
Others--including most doorways in an airport--are accessed by having 
the employee swipe a card through a reader and enter a personal 
identification number (PIN). Aviation security experts have identified 
this process as a major vulnerability, since badges and PINs can be 
stolen or loaned to an imposter.
    Leading airports have recognized this situation and replaced the 
PIN with biometrics. San Francisco and Chicago O'Hare now use hand 
geometry and finger imaging, respectively, to control employee access 
through unstaffed doorways. Unless the employee has been enrolled in 
the system, he or she cannot operate the doorway. More importantly, 
enrolled employees--some 55,000 workers in the system at O'Hare--cannot 
pass on this identity to someone else, and the biometric information 
cannot be borrowed and used by an unauthorized party. Advanced versions 
of biometric access control systems combine the technology with 
sophisticated software that can limit users to certain doorways at 
certain times, and can track who accesses which door at what time.
    Another kind of biometric access control system is being used to 
screen USAirways crewmembers as they pass through airside security 
checkpoints in Charlotte. In this trial, over 6,000 enrolled airline 
employees clear controls through a fully automated process that uses 
iris recognition technology.
                         securing the terminal
    Preventing terrorists from compromising airport access control 
systems is an important step that can significantly reduce our 
vulnerability to attacks, especially those that are designed to take 
over commercial aircraft and use them as tools for destruction. Another 
application of biometric technology can help to reduce a second 
threat--that which is caused by a security risk who is posing as a 
regular traveler.
    Law enforcement and intelligence authorities may have the name and 
photograph of a suspected terrorist, but they do not have an efficient 
way of linking the person's identity to someone who is traveling under 
a false name. Face recognition technology, because of its unique 
surveillance capability can help reduce this threat. Used alone, or in 
conjunction with other highly accurate authenticators, it can be a 
valuable tool for preliminary identification of a threat. This 
biometric operates in conjunction with the closed circuit video camera 
systems that are installed at most airports. Images of travelers are 
acquired by the cameras and converted into a template that is an 
encrypted digital representation of the image. The template can then be 
used to instantly compare the ``live'' images of travelers against an 
index of suspects.
    This technology works under some very challenging circumstances. 
Face recognition systems that have been tested on city streets have 
produced a significant drop in crime rates through detection and 
deterrence. In an airport environment, having this capability could 
help overcome the challenge faced by law enforcement authorities of 
knowing where terrorists will be, and of recognizing them when they are 
there.
                         identifying travelers
    The new security requirements have made it less convenient for most 
travelers. Airlines are advising customers to show up 2 to 3 hours in 
advance of flight time to contend with significantly longer queues--
particularly those for airside security checks--even though the system 
is running well below pre-September 11 capacities. Under these 
conditions, customers are unlikely to return soon unless something is 
done to alleviate the bottlenecks in the system.
    Biometric technology offers several opportunities to do exactly 
that. The clearest demonstration of this capability is in border 
control, where biometrics have been used in this sensitive national 
security application to routinely admit pre-registered passengers. The 
U.S. has had such a system in place since 1993, as have Canada, Israel, 
the Netherlands, and Singapore. The question is how we take these low 
volume trials and efficiently convert the lessons learned into a 
comprehensive system that both tightens security and improves service 
levels. Fortunately, the tools are in place to accomplish this goal: 
the technologies are reliable, standards are in place, and we are 
convinced there are ways to accomplish this objective at reasonable 
cost without having to resort to a national identity card.
    There are a number of air terminal processes that can be both 
automated and made more secure by turning to biometrics. Under the new 
procedures adopted after September 11, passengers are now required to 
produce a photo identification card at check-in, security clearance, 
and again at the gate. By enrolling passengers in a biometric-enabled 
system, all three processes can be significantly streamlined: instead 
of waiting in line at check-in, passengers can use self-service kiosks 
to obtain tickets and boarding passes; at security checkpoints and 
boarding gates where biometric readers are installed, a passenger's 
identity can be verified without having to again show a boarding pass, 
ticket, or ID card. This is not just more convenient for the traveler; 
it also reduces the chance of human error in security screening tasks, 
and provides a real opportunity to be more efficient in how queues are 
managed for everyone using the system.
                            recommendations
    Biometric technologies can be a critical component of an air 
transport system that offers both improved security and better service 
under the exceptionally difficult conditions the industry faces today. 
There are a number of steps that Congress can take to ensure that this 
vision becomes a reality.
             employee identification and terminal security
    The Federal Aviation Regulations at 14 C.F.R. Section 107.14 call 
for an employee access control system that ``. . . shall provide a 
means to differentiate between persons authorized to have access to 
only a particular portion of the secured areas and persons authorized 
to have access only to other portions or to the entire secured area.'' 
While this section calls for the means to ``differentiate between 
persons,'' it do not mandate the explicit use of biometric technologies 
for positive identification of workers who have access to sensitive 
areas of the airport. As noted above, Chicago O'Hare and San Francisco 
have been aggressive in interpreting the intent of the regulation and 
have installed biometric devices to make certain that only authorized 
individuals could pass through secure portals. These systems measurably 
improve physical security and simplify the administration of security 
systems. IBIA recommends that Congress amend Title 49, Subtitle VII of 
the United States Code to require positive biometric identification of 
all people who are given access to secure airport areas.
    Security checkpoint processing for aircrews can also be improved 
through the adoption of biometric verification technologies. Earlier 
efforts to standardize crew ID systems throughout the U.S. air 
transport system have not come to fruition, largely due to questions 
about harmonizing the format and features of aircrew identification 
documents. With advances in network-based biometric systems, airports 
and airlines are now able to simplify identification without having to 
standardize or reissue ID cards. We therefore highly recommend that 
gaps in security that could be caused by aircrew imposters be 
eliminated by mandating the use of biometrics for positive 
identification at airport gates, airside security checkpoints, and 
other vulnerable locations.
    Intercepting potential threats at an airport is a daunting task. 
Using biometrics in employee- and aircrew-identification systems can 
reduce the scope of the problem, but many vulnerabilities remain. Face 
recognition technology can help law enforcement officers overcome this 
challenge by giving them a tool that can help locate the 1 person in 
10,000 who may pose a risk to facilities, aircraft and travelers. We 
urge Congress and the Federal Aviation Administration to mandate the 
deployment of this necessary equipment.
             traveler identification and aircraft security
    To implement a broad system of biometric controls for air 
travelers, we propose a closer partnership between airlines, the FAA 
and Federal law enforcement authorities to implement programs for 
trusted travelers. The objective of this effort would be to streamline 
clearances for many U.S. citizens and others with proper documentation. 
The projects would have the effect of implementing the voluntary Travel 
ID Card proposal that was advocated by the Department of Transportation 
Rapid Response Team for Airports last month. Traveler participation 
would not be mandatory, and by law the program would not be tied to a 
specific card that could be demanded for purposes other than travel.
    A first step would be to offer the new process to a traveler who 
possesses a government-issued identification document such as a U.S. 
passport, Permanent Resident Card, or other secure document defined by 
law. The applicant would enroll in the program through a participating 
airline. Biometric information would be captured from the applicant and 
securely stored for later use at locations such as check-in, security 
clearance, and boarding. The FAA or other appropriate Federal agency 
such as the proposed Transportation Security Administration would be 
charged with conducting checks against law enforcement systems, with 
costs for this activity to be paid by the traveler in the form of a 
user fee. Travelers who clear this vetting process would be given 
access to a streamlined security system with dedicated lanes and 
special handling procedures. To enable airline-related services to be 
offered using the same business processes, the participating airline 
would be responsible for issuing the card that would provide the link 
to the secure biometric information.
    As noted by those who have supported the Travel ID Card concept, 
many details need to be worked out before all necessary elements of the 
system could be put in place. We recommend that this should be the 
responsibility of a Commission that would be appointed by Congress to 
promptly examine the issues and recommend specific legislation that 
would be required to implement the concept. Given the critical need for 
this coordinated effort, we recommend that the Commission, if 
authorized by Congress, should issue its report within 120 days of 
enactment.
    This recommendation for a public-private partnership fits well with 
other cooperative efforts that are well underway. Notably, the multi-
stakeholder Simplifying Passenger Travel (SPT) initiative sponsored by 
the International Air Transport Association also recommends the 
widespread use of biometrics for travelers. SPT programs should help 
the U.S. to identify a broader range of bona fide travelers who have 
been enrolled in biometric control systems that are implemented here 
and in other countries. Meanwhile, the International Civil Aviation 
Organization (ICAO) continues to make progress in standardizing the use 
and storage of biometrics on passports to make conterfeiting, identity 
theft, and imposter fraud more difficult for those will ill-intent.

    Senator Rockefeller. Dr. Yura, I hope that you will say 
some good things about West Virginia University here.

        STATEMENT OF MICHAEL T. YURA, Ph.D., DIRECTOR, 
    WEST VIRGINIA UNIVERSITY FORENSIC IDENTIFICATION PROGRAM

    Dr. Yura. Me too. Senator Rockefeller and Members of the 
Subcommittee, my fellow panelists, President Hardesty and guest 
colleagues and the significant technology expertise present 
here in this room, I really appreciate the opportunity to speak 
with you concerning biometrics and its role at West Virginia 
University. We greatly appreciate your interest in biometrics 
and the opportunity to share with you and the Aviation 
Subcommittee information about our efforts here in West 
Virginia.
    I am currently director of the Forensic Identification 
Program for West Virginia University. The primary impetus for 
the development of this Forensic Identification Program that is 
here was that there were no programs like it, within the State 
of West Virginia, the United States, or throughout the world 
that specifically train individuals and grant degrees in the 
area of forensic identification. The Federal Bureau of 
Investigation----
    Senator Rockefeller. I'm sorry. Repeat what you said 
because you're speaking a little bit softly. I want to make 
sure you are clear. That the only undergraduate degree in----?
    Dr. Yura. Forensic identification.
    Senator Rockefeller. Forensic identification offered in the 
country is offered here?
    Dr. Yura. Yes, sir.
    Senator Rockefeller. And only here.
    Dr. Yura. Yes, sir.
    Senator Rockefeller. That is pure propaganda.
    [Laughter.]
    Dr. Yura. The programs that we offer here are both in 
forensic and investigative science and biometrics. And the 
impetus for this program came from--at the request of the 
Federal Bureau of Investigation, seeing the void in terms of 
the training in technology and granting degrees in this area. 
Michael, Deputy Director of the division is here today, and we 
thank you for the insight that they had in recommending that 
these were technologies that need to be developed, and 
educational programs. We thank you very much for that.
    Our biometric programs include areas of emphasis in sensors 
and circuits, signal processing, statistics, software systems, 
and DNA and molecular biology. These programs have begun to 
address the current and future needs of individuals with 
increased scientific expertise in forensic identification 
technologies and forensic sciences.
    The use of advanced identification technologies for 
commercial, forensic, military, and security industries has 
created a significant need for scientifically trained persons 
with technical skills in computer science, engineering, 
biometrics, and the natural sciences.
    The biometric program at West Virginia University is housed 
in the College of Engineering and Mineral Resources within the 
Lane Department of Computer Science and Electrical Engineering. 
This program within the forensic identification program is 
supported directly under the Provost and Vice President of 
Academic Affairs.
    Just to step aside for a moment, the reason I am saying 
that is because President Hardesty and Dr. Lang took this 
program and said, this is a multidisciplinary program. It is 
going to be under the Provost's office so we can then stretch 
across the university and take the expertise from our medical 
center, from our arts and sciences, as well as engineering, and 
mold them together to fit the needs; which is I think a new 
concept and is working very well, and is a prototype for a new 
type of degree.
    The biometric program efforts are supported by some 
significant honors and activities. WVU was recently listed as a 
Center of Excellence in Information Assurance Education by the 
National Security Agency. We were recently awarded money for 
student scholarships and the creation of a new laboratory in 
support of information assurance from the Department of 
Defense. We are also involved in the creation of a certificate 
program in Information Assurance and Biometrics for the 
Biometric Management Office of the U.S. Army as the lead agency 
in Biometrics for the Defense Department.
    We have also developed a Memorandum of Understanding with 
the Biometric Foundation, a non-profit arm of the International 
Biometric Industry Association for the purpose of conducting 
cutting-edge research and development in biometrics for 
commercial and government applications.
    Effectively addressing the breadth of biometric 
identification system research from the life sciences to the 
computing and statistical sciences represents a significant 
interdisciplinary challenge. The concept of our Center for 
Identification Technology Research, often referred to as CITeR, 
was developed by WVU with its academic partners to establish 
the first comprehensive academic center to serve the growing 
biometric identification technology research and education 
needs. While here at WVU, CITeR's organization is a virtual 
multiuniversity center, drawing upon interdisciplinary faculty 
expertise at WVU, Michigan State, Marshall, and San Jose State 
University in order to enable it to address every technical 
aspect of biometric systems, from sensor devices through 
software and systems. Dr. Larry Hornak, the director of that 
center is here with us today also.
    CITeR was funded for planning, and its operational center 
proposal is pending with the National Science Foundation to 
become the first National Science Foundation/Industry/
University Cooperative Research Center addressing the area of 
biometrics. The goal of CITeR and NSF is to serve the needs of 
its members by advancing the performance of biometric systems 
through cutting-edge research and enabling technology, 
interdisciplinary training of scientists and engineers, through 
its biometrics research, and the facilitation of the transfer 
of new biometric technology to the private as well as 
government sectors.
    During the planning panel last April, there were 
programmatic areas where outlines--in the area of sensing and 
analysis, signal and image processing, pattern recognition, and 
statistical design. Out of that a list of studies currently on 
are listed. I will mention a few of them. A study on life 
detection in biometric devices; a study of multimodal biometric 
systems by Michigan State in cooperation with WVU; two 
collaborative projects between WVU and San Jose State seeking a 
mathematical framework for estimation of population sizes for 
biometric system testing; as well as a study of issues in 
large-scale biometric authentication infrastructure at WVU.
    The Forensic Identification Program and its biometric 
information assurance program, as well as our broad activity in 
homeland security efforts in education, training, research, and 
development are at the disposal of any branch of the U.S. 
Government, as well as the critical industries such as the 
airline industry, in promoting passenger safety and preventing 
domestic terrorism. We greatly appreciate the opportunity to 
serve the people of the United States.
    I would like to make one other additional comment. Your 
extensive involvement with the Veterans Administration, we feel 
in working with different groups to apply this same technology 
for the protection of medical records and we mentioned earlier, 
this is enabling technology. So not only are you talking about 
perimeter security and access, but also limiting the amount of 
people who have access to those records. We feel that it is 
really a critical piece of our broad mission here at WVU to 
support those efforts as well.
    Senator Rockefeller. And that is by knowing where anybody 
is at any given time.
    Dr. Yura. Certainly, as well as identifying those persons 
who have the right to have access to that and limiting that 
information. Thank you, Senator.
    [The prepared statement of Dr. Yura follows:]
        Prepared Statement of Michael T. Yura, Ph.D., Director, 
        West Virginia University Forensic Identification Program
    Senator Rockefeller and Members of the subcommittee, I greatly 
appreciate the opportunity to speak with you concerning biometrics and 
its role at West Virginia. We greatly appreciate your interest in 
biometrics and the opportunity to share with you and the Aviation 
Subcommittee information about our efforts here in West Virginia.
    I am currently the Director of the Forensic Identification Program 
at West Virginia University. The primary impetus for the development of 
the forensic identification program was that there is currently no 
program within the State of West Virginia, the United States, or 
throughout the world that specifically trains individuals and grants 
degrees in the area of forensic identification. The Federal Bureau of 
Investigation (FBI) in response to this major training and educational 
void requested that West Virginia University (WVU) develop degree 
programs in Forensic Identification with an academic major in Forensic 
and Investigative Science and Biometrics. The Biometric major includes 
areas of emphasis in Sensors and Circuits, Signal/Image Processing, 
Statistics, Software Systems, and DNA/Molecular Biology. These new 
programs will begin to address the current and future need for 
individuals with increased scientific expertise in identification 
technologies and forensic sciences.
    The use of advanced identification technology for commercial, 
forensic, military, and the security industries has created a 
significant need for scientifically trained persons with technical 
skills in computer science, engineering, biometrics, and the natural 
sciences.
    The Biometric Program at West Virginia University is housed in the 
College of Engineering and Mineral Resources within the Lane Department 
of Computer Science and Electrical Engineering. This program within the 
Forensic Identification Program is supported directly under the Provost 
and Vice President for Academic Affairs. The Biometric Program efforts 
are supported by some significant honors and activities. WVU was 
recently listed as a Center of Excellence in Information Assurance 
Education by the National Security Agency (NSA). We were recently 
awarded money for student scholarships and the creation of a new 
laboratory in support of Information Assurance from the Department of 
Defense. We are also involved in the creation of a certificate program 
in Information Assurance/Biometrics for the Biometric Management Office 
(BMO) of the U.S. Army as the lead agency in Biometrics for the 
Department of Defense. We have also developed a Memorandum of 
Understanding with the Biometric Foundation, a non-profit arm of the 
International Biometric Industry Association (IBIA) for the purpose of 
conducting cutting edge research and development in biometrics for 
commercial and government application.
    Effectively addressing the breadth of biometric identification 
system research from the life sciences to the computing and statistical 
sciences represents a significant interdisciplinary challenge. The 
concept of the Center for Identification Technology Research or 
``CITeR'' was developed by WVU with its academic partners to establish 
the first comprehensive academic center to serve growing biometric 
identification technology research and education needs. While based at 
WVU, CITeR's organization is that of a virtual multi-university center, 
drawing upon interdisciplinary faculty expertise at WVU, Michigan State 
University, Marshall University, and San Jose State University in order 
to enable it to address every technical aspect of biometric systems 
from sensor devices and biosignals through software and systems. CITeR 
was funded for planning, and it's operating center proposal is pending 
with the National Science Foundation to become the first NSF Industry-
University Cooperative Research Center addressing the area of 
biometrics. The goal of CITeR as an NSF Industry/University Cooperative 
Research Center is to serve the needs of its members by advancing the 
performance of biometric systems through cross-cutting research of new 
enabling technologies, interdisciplinary training of scientists and 
engineers through its biometrics research, and the facilitation of the 
transfer of new biometrics technology to the private and government 
sectors through its membership.
    During the Center's first Planning Conference held in April of this 
year at WVU and facilitated by the NSF, prospective center members 
working with faculty participants from the four universities defined 
CITeR's initial portfolio of research. CITeR's research activities and 
capabilities span four programmatic areas that cover the functionality 
of biometric systems. These four research areas are Sensing and 
Analysis, Signal and Image Processing and Pattern Recognition, 
Statistical Design and Evaluation, and Biometrics in Information 
Assurance. At the April planning meeting, nine projects were presented 
to prospective center members ranging from biosensors to automated 
dental record identification systems. From this set, five projects were 
selected to form CITeR's initial research portfolio. Briefly, these 
five are:
    <bullet> A Study of Liveness Detection in Biometric Devices that 
will look at extending previous work at WVU in the area of spoof 
detection in fingerprint biometric systems,
    <bullet> A Study of Multimodal Biometric Systems by Michigan State 
University looking at the optical design of systems using multiple 
biometrics,
    <bullet> Two collaborative projects between WVU and San Jose 
State--one seeking to develop a mathematical framework for Estimation 
of population sizes for biometric system testing and the second 
developing the framework for a study of Template Aging, and
    <bullet> A study of Issues in Large-Scale Biometric Authentication 
Infrastructure by WVU which explores the role of biometrics in the 
assurance of information in large-scale information systems.
    The Forensic Identification Program and it's Biometric effort in 
education, training, research, and development are at the disposal of 
any branch of the U.S. Government as well as the critical industries 
such as the airline industry in promoting passenger safety and 
preventing domestic terrorism. We greatly appreciate the opportunity to 
serve the people of the United States.
    Thank you.

    Senator Rockefeller. Thank you.
    I want to go right back to something that was said here in 
West Virginia, and that is that small airports--and you 
mentioned international is the other. They are what we have. 
And we have more flights from some, very few flights from some. 
But they are us and they are many other States. So we treat 
them preciously. If you are given--and I do not know who I am 
asking this--if you were given a small airport, and let us say 
about 30- to 60,000 planes a year, and asked to deploy the best 
possible, cost-effective and available technology, what would 
you do and what would it be likely to cost to cover it?
    Mr. Planton. I will start with that. We have employed EI 
situations in the Ben Gurion airport. We started with the 
prototype that took 90 days to implement and four kiosks. It is 
very scalable. And when you're talking about small airports and 
large airports, you are talking about scalability. A small 
airport might only take one kiosk, and we're talking in the 
40,000 or more range. And then as we get to large airports, we 
scale the kiosks. That, coupled with the process at the 
airports, could secure that airport just as well as any larger 
airport.
    Senator Rockefeller. Then you better explain for all of us 
the full range of what a kiosk provides.
    Mr. Planton. A kiosk is just what we build to put the 
biometric and smart card technology in. And it is demonstrated 
out in the hallway. What we do is, you put your smart card into 
the kiosk with your biometrics imprinted on the smart card. In 
Ben Gurion, there is hand geometry and facial recognition that 
will scan your face and your hand, match it with who you are on 
the smart card, and allow you to prove who you say you are.
    That would be a known passenger who has already been 
through a background investigation so that we can move them 
through the airport expeditiously. What we want to do is take 
the known passengers everybody is talking about out of the mix.
    If we have 100 percent passengers and we take 40 percent of 
the frequent flyers out of those lines and move them through 
and expedite them through the security process because we have 
already done the background investigation--we know through the 
smart card and biometrics on the smart card who they are--then 
we are going to benefit both the frequent flyers going through 
the airport, but we also reduce the line from 100 to 60 for the 
unknown passengers. Which are going to be let on the airplane 
if they pass the rigorous security checks, but they will take 
longer to do that.
    In the airport in Israel, 15 percent of all passengers are 
now using the system to go through the airport. And instead of 
standing in an over-an-hour line, they can go through the 
security system in about 15 seconds.
    Senator Rockefeller. That's a big--it's a big deal, isn't 
it? In other words, for people to see it that way. On the one 
hand, it appears to be data going out of there; but on the 
other hand, instead of waiting for 2 hours, I can go through in 
15 seconds.
    Mr. Planton. We put the booths to enroll in sight with 
people standing in line, which promotes those people standing 
in line to go enroll. We also use the bank card technology now, 
so they will not have to carry multiple cards. Because if you 
see the credit cards coming out of our financial institutions 
are the smart cards, there is no reason for it not to be on the 
credit card also. And in carrying that, we allow them to go 
from their carrying one, to carrying the two cards, to putting 
it on their bank card.
    Senator Rockefeller. Yes, sir.
    Mr. Siedlarz. Mr. Chairman, I think that was well presented 
here. I'd like to turn my focus to the last aspect of your 
question. You mentioned earlier today the situation involving 
coming through the Portland, Maine airport as opposed to JFK. 
And I think the thing that we to have to think about nationally 
is that anything you do with a small airport in West Virginia 
better be a small version of what you do in the big airports. 
Because to the fellows that we are really worried about, the 
ones who have found their way in through the system, they are 
traditionally going to use the weakest link.
    To focus entirely on the convenience issue--which is not 
being suggested here, I understand. But If we focus entirely on 
this security issue and the ability to identify these people, 
we can focus on different solutions for the large environment, 
and certainly we have to address scale.
    If we focus on different solutions for a variety of 
environments from big to small, then we are going have a 
system. There has got to be a compatibility in a comprehensive 
program and similarity in terms of what they encounter, what 
anyone encounters when they have to get through the air 
transportation system and how that system should be structured.
    Senator Rockefeller. And this is sort of an awkward 
question to ask, but I will ask it. If you were a terrorist, 
Mr. Siedlarz, would you not intuitively look for the weakest 
link?
    Mr. Siedlarz. Absolutely. Absolutely.
    Senator Rockefeller. Why would you take on LaGuardia or JFK 
if you can take on a small airport?.
    Mr. Siedlarz. That's precisely my point, Mr. Chairman. I 
mean, if you equip a tiny airport with a totally inadequate 
security system, they are going to find that airport. And they 
are not going to go through the big airport. Now, you might 
argue that well, for ports of entry or for crossing borders, 
you know, you can only go through a certain number of airports. 
But they are not all the same size either. And once again, you 
have to have some similarity in application and comprehensive 
approach or else you're going to have a flaw.
    Senator Rockefeller. And to follow on that, there was a 
point that I have made and others have made that one size 
doesn't fit all. That doesn't preclude the fact that 
inconsistencies of approach within airports dilute 
effectiveness.
    Mr. Siedlarz. Absolutely.
    Senator Rockefeller. So in fact, I'm speaking against 
myself. In other words, not a one size, but a one approach or a 
one set of criteria eventually for all is, in fact, the only 
secure way to do it.
    Mr. Siedlarz. Yes, sir. I think that you're talking about 
somewhat of a similarity integrated design. All details may not 
be the same because you have to deal with scale. And the cost 
won't be the same. But yes, there has to be a basic similarity 
in terms of the evenness, a level playing field with regard to 
security or else you are wasting your money.
    Senator Rockefeller. To any of you, I have this tremendous 
faith in biometrics, so I guess I am not a very objective or 
neutral person.
    Mr. Siedlarz. You are perfectly objective.
    [Laughter.]
    Senator Rockefeller. But explain to me, first of all the 
word iris, for example, has been used a lot here. And I'm 
trying to think of how long ago it was that I learned that the 
iris is the very darkest part of the eye, and the answer is not 
very long ago. And this is what I meant to be doing. So that 
this is new. Anything that is new scares people.
    And particularly, there was one of the displays out there 
where you put your hand on something. I was very comfortable to 
do that, because what I found was, in fact, not just the 
nature--this was not just a fingerprint or a thumbprint, but it 
is my hand. And that is, if I had received, let us say, playing 
baseball or--that's not very good in my case--but something, a 
subskin wound 30 years ago, it would show up. It is there.
    So it is another form of identification which nobody else 
can replicate except this particular hand. That gave me a 
feeling of security. Why is it, then, that biometrics, a new 
word--and it may not be--concerns people, if it does? As 
opposed to comforts people because it protects people.
    Mr. Siedlarz. Well, as the industry guy, I will take a shot 
at that. And if I can, Mr. Chairman, let me correct a small 
inconsistency. People are confused between iris recognition and 
retinal scans. They are two very different things. The retina 
is the tissue in the back of your eye. You have to look through 
the pupil to read it. And the iris is not quite your 
definition. It is the colored portion that surrounds the pupil.
    Senator Rockefeller. Black.
    Mr. Siedlarz. The black part is the pupil, and the colored 
portion that surrounds the pupil is the iris.
    Senator Rockefeller. OK.
    Mr. Siedlarz. But more directly, I think it essentially 
comes from an unfamiliarity, with regards to the national view 
or people's view or the population view, unfamiliarity with 
biometrics. And it is remarkable in a way, because after all, 
one biometric, even though it has been done manually for a 
couple of hundred years, is the fingerprint, which almost 
everybody is associated with or is familiar with. What we have 
found in more recent years--and biometrics have been under 
development for some 25 to 30 years, as I mentioned earlier. 
But it did not reach great popularity until the last 10 years 
because of the cost and because of the reliability, both of 
which have been dramatically improved. And they are, in fact, 
proven systems today. This is not exploratory technology any 
longer. But not enough of the everyday public has seen the 
technologies in widespread deployment. When they have, I might 
add, in banking systems, in ATMs, things like that, they have 
accepted them. And in fact, the large majority have found them 
exciting and useful. And a means for avoiding carrying six or 
seven plastic cards and PINs and all these other things that 
you have to remember in today's complex society. So it is a 
selling campaign and an advocacy that is needed here to make 
sure they understand the true properties of the technology.
    Senator Rockefeller. We have, Mr. Planton and Mr. 
Selldorff, in West Virginia, both the research and 
undergraduate training which is being done here. And we have a 
testing facility run by the U.S. Army, a huge FBI center. It is 
not far away. We are a State which over the past 75 to 100 
years has always been fighting uphill. Depending on natural 
resources and all kinds of things, our people have left. I 
remember 5 or 6 years ago was the first time in 40 years our 
population had not declined. It went up by a thousand. I 
rejoiced. That is what Las Vegas gets in an hour. It makes a 
difference to me. I was happy. And so if we have those types of 
capacities here, and in that two of the exhibitors outside, at 
least, are already doing business in West Virginia, should this 
not be an opportunity for West Virginia to tap, as they say--I 
hate the word, but, you know, leading-edge, cutting technology, 
which is of supreme importance to the security of the people of 
our country? Now, if that is not a loaded question, I have 
never heard one. But I am asking it nevertheless.
    Mr. Planton. First of all, I married a girl from 
Parkersburg, West Virginia. Five girls and their mother were 
all graduates of West Virginia University. I spent a lot of 
time in section 227 at the stadium over there rooting for the 
West Virginia Mountaineers. So I'm very comfortable with this 
question.
    You have started a program here with great insight into the 
future. Dr. Yura, you are citing the effect of technology, I 
think you were referring to, with the biometric security 
technology, with great insight also. And as a corporation, we 
are looking at that a lot. I believe that anytime you have a 
great research university like you have here, that is where 
technology starts. It is where it is tested. It is where it's 
fostered. It's where it's proven.
    When we implement solutions, we are looking for proven 
technology, and it comes out of a university system. You have a 
great university here with great presentation. And yes, you 
should have high tech in this State in Morgantown, West 
Virginia. And, in fact, you do.
    Mr. Siedlarz. I could only add to that, Mr. Chairman. I 
think the work that is being done by the university, by West 
Virginia University, is enormously important, not only for the 
industry. We should generally focus on the very small companies 
with very good technology, but who independently just do not 
have the resources and level of commitments in, other than 
spirit, to be able to achieve some of the end results that they 
would like to see with their technologies.
    But working this in combination with a great institution 
like West Virginia, I think communicates a message to the 
people as well. It is not the message of just business trying 
to--or government for that matter--trying to translate to its 
constituency the value of the technology and getting over the 
technophobes and all the other things that they worry about. It 
shows that academics are appreciating and recognizing the 
important growth of an entirely new industry.
    And at the same time, you know, creating the basis for the 
growth of that industry by providing the trained resources that 
we are going to need as it grows and as it goes forward.
    Senator Rockefeller. I do not even dare call on you, Dr. 
Yura.
    Dr. Yura. I would like to make a comment if you do not 
mind. The biometrics as an enabling technology is exciting and 
the window of opportunity is tremendous. But whether in terms 
of airlines or other issues, the integration of these 
technologies is really critical. But my fear is that someone 
will just say I will just wrap this advice and we will take a 
piece of that, and it does not work because it is not 
integrated. And I hope in the future both airlines and others 
that--and of course, we at WVU would like to assist in that 
process, to make sure that these are integrated systems rather 
than just individual technologies. Because if they are not 
integrated, it gives biometrics a bad name that has nothing to 
do with biometrics. It is an enabling technology and in 
support, to make sure we really appreciate that.
    Senator Rockefeller. I understand that. But it also brings 
me back to an earlier point, and that is that when they talk 
about doing things on a voluntary basis, that is very 
comforting. It also means it is often very likely not to happen 
because of cost or inconvenience or somebody that was not 
aggressive enough. As opposed to causing them--and I never 
would use the word ``mandatory'' again since the Clinton health 
care bill.
    [Laughter.]
    Senator Rockefeller. But I thought it was a good bill. And 
it brings the pressure--I mean, there has to at some point be a 
pressure, does there not, from the Federal Government as well 
as from others, from the industry in terms of, yes, making sure 
that we don't take a little piece here and a little piece 
there, but that we get after the business of doing it and 
deploying it all over the country, as they have in 
international airports. I mean, there is a kind of a fine mix 
here of making it voluntary so that we're not pushed too hard 
by it, or it costs too much for it, but also by saying this has 
got to happen. And we will not make the mistakes if we can 
possibly help it, but it has got to happen. So there is some 
balance there that we are in the process of still seeking.
    Dr. Yura. One of the beautiful things, I think, about 
people in West Virginia, just as a group of individuals----
    Senator Rockefeller. I can't hear you very well.
    Dr. Yura. One of the advantages, I think, of people of West 
Virginia in terms of doing things like this--if I pulled out my 
driver's license and I had my voluntary fingerprints in that 
driver's license. I think there is approximately 82 or 85 
percent of all West Virginians volunteer to put their 
fingerprint on their driver's licenses.
    Senator Rockefeller. But at the same time, when you mention 
the concept of a smart card, there are a lot of people who say, 
now, wait a second. This automatically, then, becomes 
intrusive. And you are saying automatically it does not become 
intrusive. And so this dichotomy has to be dealt with, doesn't 
it?
    Dr. Yura. Well, I think a lot of individuals who are 
concerned about safety and privacy issues and so on, that they 
recognize the need. I think there are a lot of people who would 
volunteer because of some of the surveys indicated by the 
earlier panel, and that's a start. And I think as we start, 
we'll have to move to a system people will comply with.
    Senator Rockefeller. And all of this within the context of 
the world did change on September 11, and will not be the same 
again for a long, long time.
    Gentlemen, I want to thank you. I want to thank those of 
you who came here also with exhibits, which the public had a 
chance, and hopefully still has a chance, to look at outside. 
It is very, very appreciated. I think this is, in terms of 
aviation, a huge subject. And I think that generally in terms 
of technology and its role in how we conduct our lives in the 
future. And also information, availability of information 
versus the restrictions of privacy, and the tension between 
those two becomes very important. We do not want people coming 
from this country or into this country who should not be here 
and are here with--either here already or coming with 
malevolent intent.
    And it is the government's first job and responsibility to 
protect the American people. That is absolutely--that is our 
basic responsibility. And on the other hand, we cannot--if 
somebody has, you know, diabetes and they are looking at trying 
to get a job, and all of a sudden that diabetes is revealed, 
and a potential employer sees that they have diabetes and says, 
well, you cannot have a job, we do not want that, either.
    So we have a lot to figure out in a very short time in this 
country. You have helped us, and I thank you all very, very 
much. This hearing is adjourned.
    [Whereupon, the hearing was adjourned.]
                            A P P E N D I X

        Prepared Statement of Martin Huddart, General Manager, 
                       Recognition Systems, Inc.
    Good morning. My name is Martin Huddart and I am General Manager of 
Recognition Systems, Inc. I am pleased to be here today to discuss 
technology innovations and solutions that can enhance security at 
America's airports.
    Recognition Systems, Inc. (RSI) is based in Campbell, California, 
the heart of the Silicon Valley, and was founded in 1986. It is a 
pioneer in the application of biometric systems. Our primary technology 
is Hand Geometry. The company's HandReaders have been installed in high 
security environments around the United States and worldwide for more 
than a decade. Today, there are more than 60,000 RSI HandReaders around 
the world, reading millions of hands every day.
    RSI is a subsidiary of the Ingersoll-Rand Company, a diversified 
industrial manufacturer and a world leader in security and safety. 
Together, IR and RSI provide integrated security solutions--including 
hardware, biometrics and electronic technologies, software 
applications, maintenance and consulting services--to commercial and 
industrial markets and customers in the United States and around the 
world. Our products, technologies and security solutions can be found 
in over 90 percent of the nation's nuclear power facilities, at major 
airports and other high-security environments, including prisons, 
military bases, sports arenas, hospitals, government buildings, border 
crossings and universities.
    In the wake of the terrorist attacks on September 11, one task is 
certain: we must significantly increase and improve the security of our 
air transportation infrastructure, and we must do so quickly. President 
Bush and Congress have proposed a number of solutions, and much of the 
subsequent debate has focused on issues of how we can better 
professionalize and supervise security personnel at airports. These are 
important initiatives. But we should also recognize there is a critical 
role for technology to play in providing enhanced security at U.S. and 
international airports. This was endorsed by the Secretary of 
Transportation's Rapid Response Task Force on Airport Security, 
established in the wake of the September 11 attacks. The Task Force 
recommended in its report of October 1 that airports take immediate 
action to better incorporate technologies into security procedures used 
to identify passengers, airport workers and crews, and for improved 
detection of arms, explosives and baggage screening. The Task Force 
also recommended that the Federal Aviation Administration (FAA) 
establish a public-private sector consortium to identify, sponsor and 
test new security-related technologies for our nation's airports.
               the role of biometrics in airport security
    Biometric systems lie at the core of technologies that can provide 
improved security at U.S. airports. Biometrics is the science of using 
physical characteristics to identify an individual. Modern biometrics 
systems were developed in the mid-1970s. Early commercial products were 
expensive and therefore limited to very high security applications, 
such as nuclear facilities and laboratories. In recent years, 
inexpensive microprocessors and advanced imaging electronics have 
greatly reduced the cost of biometric devices, while increasing their 
accuracy. These changes have made biometrics increasingly common in 
commercial applications. Today, thousands of businesses from daycare 
centers to college dorms use biometrics for their access control needs, 
as well as for accurate personnel time and attendance monitoring.
    Our hand geometry technology was specifically designed to be used 
in high-volume environments, where access must be tightly controlled 
and there is a need to provide forgery-proof identification procedures. 
Our technology has been engineered to work reliably in difficult 
security environments such as airports, which demand rock-solid 
performance even in outdoor applications. The accuracy, reliability, 
durability and successful track record of biometric hand reading 
technology is unparalleled in the industry.
    Biometric hand readers simultaneously analyze over 31,000 points 
and instantaneously record over 90 separate measurements of an 
individual's hand--including length, width, thickness and surface 
area--to verify that the person using the device is really who he or 
she claims to be. The hand reader compares this information with a 
``template'' of the individual's hand that has been previously stored 
in the reader, on a server or on a card. Once the person has been 
identified as a valid user, a door can be opened, or access can be 
provided to an air operations area or to boarding a plane. The reading 
and verification process takes less than a second.
                  proven vs. experimental technologies
    Members of Congress and Federal and local aviation authorities are 
presently being inundated with proposals for new technologies that can 
be incorporated into the nation's air transportation system. This 
includes many different biometric systems, including hand, iris, 
fingerprint, facial and voice recognition.
    While there is no disagreement that technology can enhance security 
at our nation's airports, we must also understand this is not the time 
to experiment with new and unproven systems. Only those technologies 
that have already been proven in the airport and travel environment, 
and which have an established reputation for reliability, should be in 
the forefront of our decision-making process as we consider how to 
proceed in the weeks and months ahead.
    Decision-makers must understand that the different biometric 
technologies being discussed in today's new airport security 
environment are in various stages of development and not all have the 
same record of reliability and performance. Hearings like this are 
important for policymakers in Washington and airport officials around 
the country to better understand the scope of existing and new 
technologies, and to see and compare first-hand the relative advantages 
and disadvantages of different technology solutions.
    We also feel it important to point out that we should not be 
looking for the one biometric technology that solves all the 
identification needs of our transportation system. This does not exist; 
there is no silver bullet. What should be done is to take the best of 
breed and apply them appropriately.
    RSI participated in a demonstration of biometric security 
technologies sponsored on October 27 by Rep. Jim Matheson (D-UT) at 
Salt Lake City International Airport, which will serve as the gateway 
to tens of thousands of U.S. and foreign visitors attending the Winter 
Olympic Games in February. RSI demonstrated how our biometric 
HandReaders, when used with smart card technology, can be an integral 
part of an airport's integrated security system.
    One fact is well established and should be clear: Of all the 
biometric systems currently in use, hand readers are the technology 
that today best meets the essential tests of performance and 
reliability in airport environments for employee access and high volume 
passenger verification.
    It is important that the FAA, as the Federal agency with overall 
jurisdiction and responsibility for aviation security, take the lead in 
determining specific airport security technology standards to be 
adopted for individual airports. To facilitate this effort, Rep. 
Matheson and Rep. Mike Honda (D-CA) have introduced H.R. 3101, which 
would direct the National Institute of Standards and Technology (NIST) 
to develop standards and measures for aviation security technologies. 
The FAA would fund and carry out a pilot program in at least 20 U.S. 
airports to test and evaluate the effectiveness of various existing, 
new and emerging aviation security technologies, and then report on 
their findings and recommendations. These pilot projects will provide 
an opportunity to compare and evaluate different biometric systems.
    We certainly support these pilot programs, but also know that they 
will take time. And time is our enemy. So we must have a short-term as 
well as a long-term strategy for the use of biometrics to enhance the 
security of America's transportation infrastructure.
          the short-term goal: improved airport access control
    The Federal Aviation Administration (FAA) already directs U.S. 
airports to insure that only authorized individuals are allowed access 
to flight operations areas. Most airports implement this directive by 
using card-based access systems to control access to high-security 
areas. However, card-based systems are an inadequate technology to 
control access. These systems can only positively or negatively 
identify the card, not verify that it belongs to the individual using 
it. By contrast, a biometric system can truly verify the person.
    For 9 years, San Francisco International Airport (SFO) has been 
using RSI's HandReaders to meet the difficult challenge of securing 
access to sensitive areas of the facility. More than 30,000 airport 
employees are enrolled in the system which spans the entire airport and 
protects more than 180 doors. SFO has demonstrated the reliability of 
RSI's hand geometry technology in the airport environment over several 
years of use.
    Using biometric hand readers to control airport-wide access not 
only enhances security, it provides confidence to airport employees by 
demonstrating that a major and obvious security need is being 
successfully addressed. It also increases confidence of the traveling 
public who can see this technology layer in place throughout the 
facility. This is not a pilot or demonstration project; it is a 
permanent, proven solution that lies at the core of SFO's security 
infrastructure. Therefore, with confidence, we can deploy our 
technology at every U.S. airport now and the enhanced security we 
provide at SFO can blanket the rest of our nation's airports.
    To this end, current regulations governing access demand that only 
authorized people be allowed access. A clarification to this regulation 
(FAR 107.14a) is needed to ensure that it is being followed with the 
full and clear intent of the regulation, and calls for the use of 
biometrics to achieve this goal.
        a longer-term goal: automated aircraft boarding systems
    In the wake of September 11, Americans have experienced more 
complex and time-consuming security procedures at U.S. airports. Media 
reports have focused on passengers who have confronted long and slow-
moving lines at airport security checkpoints. Most Americans recognize 
the need for new and improved security improvements and so far have 
been patient with the inconveniences they cause. But the reality is 
that the traveling public will soon demand ways to automate this new, 
higher level of security. This will be particularly the case with 
business travelers who need to fly frequently, and to whom long delays 
have an economic consequence.
    One approach to this problem is for U.S. airports to segregate 
passengers into ``high risk'' and ``low risk'' categories. This allows 
airport security personnel to focus their time, attention and resources 
on a relatively small number of ``high risk'' passengers. By doing so, 
security processes can be eased for individuals who have been pre-
determined to be at ``low risk,'' and who make up the bulk of the 
traveling public.
    This type of system has been in place for 7 years as part of a 
pilot program of the Immigration and Naturalization System (INS). It is 
called INSPASS. Frequent travelers have a background check performed 
and upon passage of this they are entered into the program. A kiosk at 
U.S. immigration control is used to allow the INSPASS user to insert 
their identification card and enter appropriate flight information. 
Their identity is then confirmed by using an RSI HandReader. The live 
template of the user's hand is instantly compared with the template 
that has been previously stored in a secured government database. If 
the templates match, the individual can proceed. Over 23,000 
transactions take place each month at nine separate North American 
airports.
    A similar program is in use at Tel Aviv's Ben Gurion International 
Airport, one of the world's busiest air terminals and a facility 
recognized and respected around the world for its high level of 
security. RSI HandReaders are used in a system designed by Electronic 
Data Systems Corporation (EDS) that allows Israeli citizens and 
frequent international travelers to use an automated inspection and 
identification kiosk. Travelers use a credit card for initial 
identification; then the system instantly verifies their identity with 
a HandReader. The system prints a receipt that allow travelers to 
proceed.
    Ben Gurion's biometric identification system has reduced long 
waiting times at security checkpoints. The automated inspection and 
identification process takes about 20 seconds to complete. By contrast, 
passport control lines at Ben Gurion can take up to an hour. The 
project was initially offered only to frequent travelers, but has 
recently been made available to all Israeli citizens. Nearly 80,000 
Israeli citizens have enrolled in the program, and the system is now 
processing about 50,000 participants each month. In 2002, a similar 
biometric border crossing system will be installed at the Israeli/
Palestinian border to verify the identity of 50,000 people who cross 
the Gaza Strip every day.
    Developing a similar system here in the United States was one of 
the core recommendations of the Secretary of Transportation's Rapid 
Response Team on Airport Security. The Rapid Response Team concluded 
``there is an urgent need to establish a nationwide program of 
voluntary, pre-screening of passengers, together with the issuance of 
`smart' credentials, to facilitate expedited processing of the vast 
majority of air travelers and to enable security professionals to focus 
their resources more effectively.'' (Recommendation No. 16).
    We are confident that a similar system could be developed for U.S. 
airports and the Federal Government and Congress should provide the 
leadership necessary to implement this concept. To this end, we 
recommend that the U.S. Department of Transportation conduct a study of 
options for improving positive identification of passengers at check-in 
counters and border crossings through the use of ``smart cards'' and 
biometrics, in an effort to determine the feasibility and cost of such 
a program and a schedule for requiring air carriers to put it in place.
using biometrics to verify immigration and visa status at u.s. airports
    Biometrics can also play an important role in addressing 
shortcomings in the nation's immigration and visa systems. America's 
open borders have created ample opportunity for terrorists to enter the 
United States. Each year, more than 300 million individuals cross our 
borders. While for the most part these border crossings are legitimate 
citizens and visitors, the U.S. lacks the ability to track border 
crossings, or even to accurately confirm the identity of individuals 
entering or leaving the country.
    Legislation introduced in the U.S. Senate on October 25 by Senator 
Diane Feinstein (D-CA) and Senator Jon Kyl (R-AR) seeks to improve the 
ability of immigration officials to identify foreign visitors at U.S. 
airports and other border crossings by using biometric technologies. 
The legislation would develop a new biometric ``SmartVisa'' card that 
foreign nationals would swipe upon their entry and exit to the United 
States. To ensure that these cards correctly identify the individual 
who is authorized to use them, the bill would authorize funding for INS 
to deploy biometric card readers and scanners at all U.S. airports, 
seaports and land border crossings.
    Here again, a similar system is already in operation in Israel. The 
Israeli Government is using RSI HandReaders in its BASEL border-
crossing project. Paired with Visionic's facial scanning technology, 
this dual biometric system is designed to verify the identity of more 
than 50,000 individuals who daily cross the Israeli-Palestinian border. 
In an area of the world where citizens live with the fear of terrorism 
every day, and where there exists a need to manage border crossings 
with extraordinary reliability and accuracy, the fact that the Israeli 
Government has chosen RSI HandReaders for this task should serve as a 
positive endorsement that this system represents the best available 
technology for use in U.S. airports.
                               conclusion
    As our Nation moves forward following the tragic events of 
September 11, the overriding security issue will be to better manage 
people and access within the complex environment of a commercial 
airport. Technology, even sophisticated biometrics, cannot replace 
improved training for security personnel and heightened human 
monitoring and vigilance. We know that even the most careful baggage 
screener can grow tired after hours on the job. And the most careful 
worker can mistakenly lose an ID card or a key. But a biometric hand 
readers will not fall asleep on the job; it will never take a day off; 
it won't allow airport employees to ``piggy-back'' behind authorized 
workers; and it won't ``loan'' its ID card or access code to cousins, 
friends or co-workers.
    For these reasons, biometric hand readers offer a valuable solution 
to enhancing security for Americans who depend on our air 
transportation system and who today, and tomorrow, need to be reassured 
that those charged with the responsibility of providing for the 
public's safety have evaluated and utilized every available technology 
to do so.
    Thank you.
  

                                  <all>

</pre></body></html>
